1a
Appendix A
248 A.3d 212
Supreme Judicial Court of Maine.
Joshua A. GRAY
v.
DEPARTMENT OF PUBLIC SAFETY
Docket: Ken-20-168
|
Argued: February 10, 2021
|
Decided: April 6, 2021
Attorneys and Law Firms
Roger L. Hurley, Esq. (orally), Camden, for appellant
Joshua A. Gray
Aaron M. Frey, Attorney General, and Kent Avery,
Asst. Atty. Gen. (orally), Office of the Attorney General,
Augusta, for cross-appellant Department of Public
Safety
Panel: MEAD, GORMAN, JABAR, HUMPHREY, HORTON, and CONNORS, JJ.
Opinion
HUMPHREY, J.
[¶1] In this appeal, we consider whether the First
Amendment rights of an applicant for a professional

2a
Appendix A
license were abridged by the application of statutory
competency standards to his conduct on social media.1
[¶2] Joshua A. Gray appeals from a judgment of the
Superior Court (Kennebec County, Murphy, J.) affirming the Department of Public Safety’s denial of Gray’s
application for a professional investigator license based
on posts and comments that Gray made on social media, using an account bearing the name of his outof-state private investigation business, concerning a
Maine State Police lieutenant. Gray argues that the
court erred in concluding that the Department had not,
in denying his application, violated his free speech
rights conferred by the First and Fourteenth Amendments of the United States Constitution.2 Although
Gray challenges the determination that he acted with

1

Gray raises the free speech provisions of only the United
States Constitution, U.S. Const. amend. I, and does not make any
argument regarding the Maine Constitution’s free speech protections. See Me. Const. art. I, § 4; City of Bangor v. Diva’s, Inc., 2003
ME 51, ¶¶ 10-11 & n.4, 830 A.2d 898; Portland v. Jacobsky, 496
A.2d 646, 648-49 (Me. 1985).
2
Gray also argues that the court abused its discretion in deciding the matter without holding oral argument. Oral argument
was not required by M.R. Civ. P. 80C(l), see Lindemann v.
Comm’n on Governmental Ethics & Election Pracs., 2008 ME 187,
¶ 26, 961 A.2d 538, and we discern no abuse of discretion in the
court’s decision not to hear oral argument before deciding the
matter. Gray did not bring any independent claims, and the court
rejected as untimely his notice of objection to the record—a ruling
that Gray does not challenge on appeal. See M.R. Civ. P. 80C(f )
(requiring that notice of an objection to the record be served on
the agency within ten days after the record is filed).

3a
Appendix A
“actual malice”3 in posting and commenting on social
media, we conclude that actual malice need not be
shown and that we must apply intermediate scrutiny
to review the licensing standards as applied to Gray
here. Applying that standard, we affirm the judgment.
I.

BACKGROUND

[¶3] On January 26, 2018, Gray applied to the Department for a professional investigator license. See 32
M.R.S. § 8107 (2020). The Chief of the Maine State Police issued the decision of the Department denying
Gray’s application on August 31, 2018. See 32 M.R.S.
§§ 8103(1-B), 8113 (2020). The Department found that
Gray had made “materially false” statements on social
media, including on his private investigation business’s Facebook page, which cast into question Gray’s
“ability to competently investigate and then report investigative findings with accuracy, objectivity, and
without bias,” and, as a result, that Gray lacked the
requisite competency and fitness of character to act as
a professional investigator in Maine.
[¶4] Gray appealed to the Superior Court. See 5
M.R.S. § 11001(1) (2020); M.R. Civ. P. 80C. The court
held that the Department could not deprive Gray of a
3

Statements are made with “actual malice” when they are
made with knowledge that they are false or with reckless disregard of their truth or falsity. N.Y. Times Co. v. Sullivan, 376 U.S.
254, 279 80, 84 S. Ct. 710, 11 L. Ed. 2d 686 (1964); see Pickering
v. Bd. of Educ., 391 U.S. 563, 573-75, 88 S. Ct. 1731, 20 L. Ed. 2d
811 (1968).

4a
Appendix A
license for having expressed himself on social media
unless the statements he made fell outside the protection of the First Amendment. The court remanded for
the Department to determine whether the limited
privilege that applies to even false statements about
public figures on matters of public concern was overcome by a finding, by clear and convincing evidence,
that Gray made the statements on social media with
“actual malice,” meaning with knowledge that the
statements were false or with reckless disregard of
their truth or falsity. N.Y. Times Co. v. Sullivan, 376
U.S. 254, 279-80, 84 S. Ct. 710, 11 L. Ed. 2d 686 (1964);
see Pickering v. Bd. of Educ., 391 U.S. 563, 573-75, 88
S. Ct. 1731, 20 L. Ed. 2d 811 (1968).
[¶5] On remand, the Department propounded thirtynine questions to Gray about certain assertions he had
made using a social media account identifying himself
as a “PI” and including the name of his Massachusetts
private investigation business, NSI Surveillance & Investigation. Gray responded to the questions and admitted that he had made on social media posts and
comments that stated that a Maine State Police lieutenant was “[p]ossibl[y] drunk” during the time of a
police incident that resulted in a woman’s death and
that the lieutenant had “murdered” the woman. He
asserted to the Department that the statements
were opinions, not facts, and that when he learned
that another officer—not the lieutenant whom he had
named—had shot the woman, he provided that information on social media. He also admitted that he had

5a
Appendix A
stated on social media that the lieutenant had been
the subject of multiple internal affairs investigations,
though he again asserted that his statement was an
expression of opinion.
[¶6] During its examination of Gray’s responses, the
Department reviewed affidavits from (1) the lieutenant in question, who swore that he had not consumed
alcohol on the day of the incident or at any time during
his life, and (2) the commander of the Department’s Office of Professional Standards (OPS), formerly the Office of Internal Affairs, who reported that only one
complaint had been made against the lieutenant—a
complaint initiated by Gray that had resulted in an investigation. The Department also considered hundreds
of pages of printouts of Gray’s posts and comments on
social media and other internet platforms.
[¶7] The Department issued a second decision denying Gray’s application, finding that Gray had made certain statements on social media with actual malice—
knowing that they were false or with reckless disregard of their truth or falsity—including statements
about the lieutenant’s intoxication; statements that
the lieutenant had “murdered,” “executed,” or “killed”
the woman who died in the incident; and statements
that the lieutenant had been subject to multiple complaints filed with the OPS.
[¶8] The decision also stated, however, that the actual malice standard did not apply because even if
Gray had the right to say the things he did, he was not

6a
Appendix A
entitled to a professional license if he did not meet the
competency and character standards for a professional
investigator. The Department found that Gray had reported erroneous, uninvestigated conclusions on social
media, placing behind those conclusions “the authority
of the reputation of [Gray’s] business” and of “the private investigator license of the State of Massachusetts.” The Department also found that Gray “lacks the
basic competency and requisite good moral character”
to hold a professional investigator’s license and that
his “communications have demonstrated a pattern of
reckless disregard for the truth.”
[¶9] On October 28, 2019, Gray again appealed to the
Superior Court by filing a petition for review of the Department’s denial of his application for a license. See 5
M.R.S. § 11001(1); M.R. Civ. P. 80C. The court entered
a judgment on June 1, 2020, affirming the Department’s decision, concluding that the Department’s
finding of actual malice was supported by the administrative record. Gray timely appealed, and the Department cross-appealed. See 5 M.R.S. § 11008 (2020); M.R.
App. P. 2B(c)(1).
II.

DISCUSSION

[¶10] We review an administrative agency’s decision
“directly for errors of law, abuse of discretion, or findings not supported by substantial evidence in the record.” Palian v. Dep’t of Health & Hum. Servs., 2020 ME
131, ¶ 10, 242 A.3d 164 (quotation marks omitted). To

7a
Appendix A
conduct this review here, we will (A) summarize the
standards governing the licensing of professional
investigators in Maine and (B) review whether the
Department, in denying Gray’s license application, violated the First Amendment.
A. Standards for Licensing Professional Investigators
[¶11] Licensed professional investigators in Maine
are authorized to conduct private investigations, including by accepting consideration to obtain information about a crime committed in violation of the law
or “[t]he identity, habits, conduct, movements, whereabouts, affiliations, associations, transactions, reputation or character of any person.” 32 M.R.S. § 8103(4A)(A), (B) (2020). The statutes governing the licensing
of professional investigators in Maine establish qualifications for a license, an application process, and
standards for denying an application. See 32 M.R.S.
§§ 8105, 8107, 8113 (2020).
[¶12] To qualify for a professional investigator license, a person must have “demonstrated good moral
character.” Id. § 8105(4). The Chief of the Maine State
Police may refuse to issue a license if an applicant is
incompetent, meaning that the applicant “[e]ngaged in
conduct that evidences a lack of ability or fitness to discharge the duty owed by the licensee to the client or
the general public” or “[e]ngaged in conduct that evidences a lack of knowledge or an inability to apply

8a
Appendix A
principles or skills to carry out the practice” for which
the person seeks the license. Id. § 8113(6). A license
may also be denied if the applicant has violated “standards of acceptable professional conduct adopted by
rule” by the Chief of the Maine State Police. Id.
§ 8113(11); see 32 M.R.S. § 8103(1-B). No standards of
conduct have been adopted by rule, however,4 meaning
that the applicable standards are those provided by
statute.
B. First Amendment
[¶13] The construction of the First Amendment presents a question of law that we review de novo. See Palian, 2020 ME 131, ¶ 10, 242 A.3d 164; Burr v. Dep’t of
Corr., 2020 ME 130, ¶ 20, 240 A.3d 371.
[¶14] The First Amendment provides, “Congress shall
make no law . . . abridging the freedom of speech. . . .”
U.S. Const. amend. I. By virtue of the Fourteenth
Amendment, the prohibition against governmental
abridgement of the freedom of speech applies to state
governments. See U.S. Const. amend. XIV, § 1 (“No
State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States. . . .”); Jones v. Sec’y of State, 2020 ME
113, ¶ 19, 238 A.3d 982.
4

The only adopted rule pertaining to professional investigators requires a written examination regarding “handgun safety,
weapons handling mechanical operations, and use of force.” 16222 C.M.R. ch. 9, § 9.03 (effective Aug. 1, 1998).

9a
Appendix A
[¶15] Gray argues that the record does not support a
finding of actual malice, but the Department argues in
response that the actual malice standard is not applicable. To resolve this dispute, we (1) determine the
proper standard for evaluating whether the First
Amendment has been violated in these circumstances,
and (2) apply that standard in reviewing the Department’s decision on Gray’s application.
1. Standard for Determining a First Amendment Violation
[¶16] We review the constitutionality of the applicable statutes as they were applied and do not treat
Gray’s argument as a facial constitutional challenge
because Gray does not argue that the challenged statutes “cannot be applied constitutionally on any set of
facts.” Guardianship of Chamberlain, 2015 ME 76,
¶ 10, 118 A.3d 229.
[¶17] Gray analogizes his situation to that of the
teacher in Pickering v. Board of Education, whose employment was terminated after he criticized the local
board of education in a published letter to the editor of
a newspaper. 391 U.S. at 564-65, 88 S. Ct. 1731. Unlike
in Pickering, however, Gray has not had government
employment terminated based on his exercise of the
right to speak as a private citizen on a matter of public
concern.5 See id. at 564-65, 573-74, 88 S. Ct. 1731.
5

Such a termination of government employment may violate
First Amendment rights because teachers cannot “constitutionally

10a
Appendix A
Rather, he has been subjected to regulations governing
the licensing of professional investigators based on his
conduct as a member of the profession for which he
seeks a license. Cf. Garcetti v. Ceballos, 547 U.S. 410,
421, 426, 126 S. Ct. 1951, 164 L. Ed. 2d 689 (2006) (“We
reject . . . the notion that the First Amendment shields
from discipline the expressions employees make pursuant to their professional duties.”). The analysis set
forth in Pickering is, therefore, inapposite.
[¶18] Because of the power of government to regulate
conduct, governmental authority “to regulate the professions is not lost whenever the practice of a profession entails speech.” Greater Balt. Ctr. for Pregnancy
Concerns, Inc. v. Mayor & City Council of Balt., 879
F.3d 101, 109 (4th Cir. 2018) (quotation marks omitted). “States may regulate professional conduct, even
though that conduct incidentally involves speech.”
Nat’l Inst. of Fam. & Life Advocs. [NIFLA] v. Becerra,
___ U.S. ___, 138 S. Ct. 2361, 2372, 201 L. Ed. 2d 835
be compelled to relinquish the First Amendment rights they
would otherwise enjoy as citizens to comment on matters of public
interest in connection with the operation of the public schools in
which they work.” Pickering, 391 U.S. at 568, 88 S. Ct. 1731. In
such instances, courts must “arrive at a balance between the interests of the teacher, as a citizen, in commenting upon matters
of public concern and the interest of the State, as an employer, in
promoting the efficiency of the public services it performs through
its employees.” Id. The Supreme Court therefore held that “absent proof of false statements knowingly or recklessly made by [a
teacher], a teacher’s exercise of [the] right to speak on issues of
public importance may not furnish the basis for [the teacher’s]
dismissal from public employment.” Id. at 574, 88 S. Ct. 1731.

11a
Appendix A
(2018). The State “bears a special responsibility for
maintaining standards among members of the licensed
professions” and “does not lose its power to regulate
commercial activity deemed harmful to the public whenever speech is a component of that activity.” Ohralik v.
Ohio State Bar Ass’n, 436 U.S. 447, 456, 460, 98 S. Ct.
1912, 56 L. Ed. 2d 444 (1978).
[¶19] Occupational licensing requirements are not
categorically exempt from First Amendment scrutiny,
however, see Vizaline, L.L.C. v. Tracy, 949 F.3d 927, 934
(5th Cir. 2020), and the Supreme Court has signaled
that professional speech does not fall into a unique category that is exempt from First Amendment protections, see NIFLA, 138 S. Ct. at 2373-75. The pertinent
standard for determining whether a regulation governing entry into a profession violates the First
Amendment has become a subject of some confusion
throughout the United States.
[¶20] Following the issuance of Lowe v. Securities and
Exchange Commission in 1985, many courts cleaved to
the standard set forth in Justice White’s concurring
opinion in that matter: “Regulations on entry into a
profession, as a general matter, are constitutional if
they have a rational connection with the applicant’s fitness or capacity to practice the profession.” 472 U.S.
181, 228, 105 S. Ct. 2557, 86 L. Ed. 2d 130 (1985)
(White, J., concurring) (quotation marks omitted); see,
e.g., Hines v. Alldredge, 783 F.3d 197, 201-02 & n.17
(5th Cir. 2015), abrogation recognized by Vizaline,
949 F.3d at 933-34; Nat’l Ass’n for the Advancement of

12a
Appendix A
Multijurisdiction Prac. v. Howell, 851 F.3d 12, 16, 1920 (D.C. Cir. 2017) (applying rational basis review to
restrictions on who may appear as counsel before a local federal court); Nat’l Ass’n for the Advancement of
Multijurisdiction Prac. v. Castille, 799 F.3d 216, 221
(3d Cir. 2015) (“It has long been true that [a] State can
require high standards of qualification, such as good
moral character or proficiency in its law, before it admits an applicant to the bar, so long as any requirement has a rational connection with the applicant’s
fitness or capacity to practice law.” (alteration in original) (quotation marks omitted)).
[¶21] Because, however, the Supreme Court held in
2018 that it has never recognized “professional speech
as a unique category that is exempt from ordinary
First Amendment principles,” NIFLA, 138 S. Ct. at
2375, it is unclear whether the “rational connection”
test is appropriately applied even as to standards of
qualification to practice a profession, see Vizaline, 949
F.3d at 934 (“While we hold the district court erred
by categorically exempting occupational-licensing requirements from First Amendment scrutiny, we express no view on what level of scrutiny might be
appropriate for applying Mississippi’s licensing requirements to [the plaintiff ]’s practice.”).
[¶22] The Supreme Court has made clear that if regulations impose content-based restrictions on speech,
strict scrutiny or intermediate scrutiny may be applied, depending on whether the affected speech was
commercial speech. See NIFLA, 138 S. Ct. at 2374-75;

13a
Appendix A
Otto v. City of Boca Raton, 981 F.3d 854, 859-68 (11th
Cir. 2020) (applying strict scrutiny to an ordinance prohibiting sexual orientation change therapies because
the ordinance imposed content- and viewpoint-based
restrictions on speech); see also Holder v. Humanitarian L. Project, 561 U.S. 1, 27-28, 130 S. Ct. 2705, 177
L. Ed. 2d 355 (2010) (stating that although a law may
be directed at conduct, the conduct triggering the application of that law may consist of communicating a
particular message and therefore may require a court
to apply First Amendment principles).6
[¶23] The treatment of regulations governing the licensing of professionals that place a merely incidental
burden on speech is, however, unclear. Free speech concerns are implicated in such cases because “constitutional violations may arise from the deterrent, or
chilling, effect of governmental [efforts] that fall short
of a direct prohibition against the exercise of First
6

Before National Institute of Family & Life Advocates [NIFLA] v. Becerra, ___ U.S. ___, 138 S. Ct. 2361, 2372, 201 L. Ed. 2d
835 (2018), some intermediate level of scrutiny was applied in reviewing content-based standards governing attorney conduct
that included “actual malice” language prohibiting a lawyer
from making “a statement that the lawyer knows to be false or
with reckless disregard as to its truth or falsity concerning the
qualifications, integrity, or record of a judge.” Standing Comm. on
Discipline of the U.S. Dist. Ct. v. Yagman, 55 F.3d 1430, 1437 (9th
Cir. 1995) (quotation marks omitted) (applying an objective test
of whether the attorney “had a reasonable factual basis for making the statements, considering their nature and the context in
which they were made”); In re Dixon, 994 N.E.2d 1129, 1132-37
(Ind. 2013) (same).

14a
Appendix A
Amendment rights.” Bd. of Cnty. Comm’rs v. Umbehr,
518 U.S. 668, 674, 116 S. Ct. 2342, 135 L. Ed. 2d 843
(1996) (alteration in original) (quotation marks omitted) (explaining that “unconstitutional conditions”
may not be placed on government benefits).7 However,
it is unclear whether such regulations are subject to
the “rational connection” test, see Lowe, 472 U.S. at 228,
105 S. Ct. 2557 (White, J., concurring), or must survive
intermediate scrutiny, meaning that they “must be
narrowly tailored to serve a significant governmental
interest,” Packingham v. North Carolina, ___ U.S. ___,
137 S. Ct. 1730, 1736, 198 L. Ed. 2d 273 (2017) (quotation marks omitted). The Supreme Court did not decide
the question in NIFLA, 138 S. Ct. at 2373-75, but a
handful of courts have since opined on the issue.
[¶24] The United States Court of Appeals for the
Fourth Circuit recently considered a North Carolina
ban on the practice of law by corporations—a professional regulation that incidentally affected speech.
Capital Associated Indus. v. Stein, 922 F.3d 198, 207
(4th Cir. 2019). As that court stated, “Many laws that
regulate the conduct of a profession or business place
incidental burdens on speech, yet the Supreme Court
has treated them differently than restrictions on
speech.” Id. at 207-08.
7

“[I]f the government could deny a benefit to a person because of his constitutionally protected speech or associations, his
exercise of those freedoms would in effect be penalized and inhibited.” Perry v. Sindermann, 408 U.S. 593, 597, 92 S. Ct. 2694, 33
L. Ed. 2d 570 (1972).

15a
Appendix A
[¶25] The court held that the practice of law involved
both communicative and noncommunicative aspects
and that the pertinent statutes did not target “the communicative aspects of practicing law, such as the advice lawyers may give to clients” but instead focused
on who may act as a lawyer. Id. at 208. “Licensing laws
inevitably have some effect on the speech of those who
are not (or cannot be) licensed. But that effect is merely
incidental to the primary objective of regulating the
conduct of the profession.” Id.
[¶26] The court observed that, although intermediate
scrutiny ordinarily applies to regulations of conduct
that incidentally impact speech, “the [Supreme] Court’s
cases have not been crystal clear about the appropriate
standard of review” given that regulations relating to
admission to a profession fall in “an area in which [the
Court] ‘has afforded less protection for professional
speech.’ ” Id. (quoting NIFLA, 138 S. Ct. at 2372); see
also AMA v. Stenehjem, 412 F. Supp. 3d 1134, 1148-49
(D.N.D. 2019) (following Stein). The court concluded,
however, that intermediate scrutiny should be applied,
stating, “We think this a sensible result, as it fits neatly
with the broad leeway that states have to regulate professions.” Stein, 922 F.3d at 209; but see Doyle v.
Palmer, 365 F. Supp. 3d 295, 304-05 (E.D.N.Y. 2019)
(holding that the requirement of a sponsor’s affidavit
for Bar admission “is nothing more than a standard
regulation of the legal profession that . . . passes rational basis review”).

16a
Appendix A
[¶27] Confronting the question of the proper level of
scrutiny, another court described the legal ambiguity
as follows:
[T]he Court in NIFLA explained that a lower
level of scrutiny should be applied to two
kinds of content-neutral restrictions: (1) laws
that require professionals to disclose factual,
noncontroversial information in their commercial speech[ ]; and (2) regulations of professional conduct that incidentally burden speech.
Although the Court in NIFLA did not specifically state what level of review—how much
lower than strict scrutiny—applied to regulations of professional conduct that incidentally
burden speech, the Court appeared to apply
intermediate scrutiny.
McLemore v. Gumucio, No. 3:19-cv-00530, 2020 WL
7129023 at *20, 2020 U.S. Dist. LEXIS 228082 at *59
(M.D. Tenn. Dec. 4, 2020) (emphasis added) (quotation
marks omitted) (citation omitted). That court, citing
Stein, 922 F.3d at 209, assumed for purposes of deciding a motion to dismiss that intermediate scrutiny
would apply if the merits were reached. Id. at *60-61.
[¶28] In light of NIFLA and Stein, we similarly conclude that intermediate scrutiny is the proper test to
apply when a regulation of conduct that does not explicitly target speech but incidentally burdens it is
challenged on First Amendment grounds.8 Here, the
8

Although we apply intermediate scrutiny based on our reading of NIFLA, 138 S. Ct. at 2370-75, applying the less stringent

17a
Appendix A
licensing standards, requiring good character and competency in investigating matters, do not on their face
prohibit or constrain speech. Cf. NIFLA, 138 S. Ct. at
2372. The licensing statutes incidentally affect an applicant’s speech, however, because determining whether
an applicant meets the requirements of good character
and competency may depend—as it does here—upon
the applicant’s communications. See id.; 33 M.R.S.
§§ 8105(4), 8113(6). We therefore apply intermediate
scrutiny to review the Department’s application of the
licensing statutes to Gray’s application.
2. Application of Intermediate Scrutiny
[¶29] Unlike a determination of actual malice, which
“involve[s] legal, as well as factual, elements,” and requires an independent examination of the record, intermediate scrutiny does not involve that level of
review, and we will accept the facts found by the Department unless they are unsupported by evidence in
the record. Hernandez v. New York, 500 U.S. 352, 36768, 111 S. Ct. 1859, 114 L. Ed. 2d 395 (1991); see Palian, 2020 ME 131, ¶ 10, 242 A.3d 164. Thus, we proceed to (a) review the findings of the Department and
(b) apply intermediate scrutiny to the licensing standards as applied.

“rational connection” test would yield the same result, Lowe v.
S.E.C., 472 U.S. 181, 228, 105 S. Ct. 2557, 86 L. Ed. 2d 130 (1985)
(White, J., concurring) (quotation marks omitted).

18a
Appendix A
a. Review of Findings
[¶30] We review the decision of the Department to
determine whether its findings are “supported by substantial evidence in the record.” Palian, 2020 ME 131,
¶ 10, 242 A.3d 164 (quotation marks omitted).
[¶31] In its final decision, the Department specifically found that Gray made uninvestigated and false
statements, using the social media account of his investigation business, in which he suggested that the
lieutenant was intoxicated; stated that the lieutenant
had “murdered,” “executed,” or “killed” a woman; and
indicated that the lieutenant had been subject to multiple complaints filed with the OPS. Gray admitted,
through his responses to the Department’s written
questions, that the statements, which were made part
of the evidentiary record, were his.
[¶32] Substantial evidence in the record supports the
Department’s determination that Gray used a social
media account bearing his investigation business’s
name to repeatedly publicize uninvestigated and false
statements. The evidence also supports the Department’s ultimate finding that Gray’s behavior demonstrated that he lacked the necessary good character
and competency to serve as an investigator in Maine.
See 32 M.R.S. § 8105(4) (requiring the demonstration
of “good moral character”); id. § 8113(6) (authorizing
the denial of a professional investigator’s license if the
applicant lacks competency to carry out the duties of
an investigator); id. § 8103(4-A)(A), (B) (establishing a

19a
Appendix A
professional investigator’s role in investigating the
crimes, conduct, reputation, or character of others).
The record also supports the Department’s finding that
Gray’s responses to the questions propounded on him
demonstrated a lack of capacity to distinguish between
fact and opinion—an ability that a professional investigator must possess. See id. § 8113(6)(B). The Department therefore did not err in its findings.
b. Intermediate Scrutiny of the Licensing
Standards as Applied
[¶33] The question before us is whether the statutory
licensing standards, as applied in Gray’s case, were
“narrowly tailored to serve a significant governmental
interest.” Packingham, 137 S. Ct. at 1736 (quotation
marks omitted); see NIFLA, 138 S. Ct. at 2372.
[¶34] The Department denied the license application
because, as the record supports, Gray published uninvestigated speculation as fact using his job title and
the name of his Massachusetts private investigation
business—conduct that demonstrated a lack of capacity to distinguish between fact and opinion, and to investigate and honestly report facts. See 32 M.R.S.
§§ 8103(4-A)(A), (B), 8105(4), 8113(6); see also Office of
Pro. Regul. v. McElroy, 175 Vt. 507, 824 A.2d 567, 56869, 571 (2003). The government has a significant interest in maintaining standards of good character and
competency for those who investigate and report on
the intimate details of others’ lives. See 32 M.R.S.

20a
Appendix A
§ 8103(4-A)(A), (B); Fla. Bar v. Went for It, Inc., 515 U.S.
618, 625, 115 S. Ct. 2371, 132 L. Ed. 2d 541 (1995)
(“States have a compelling interest in the practice of
professions within their boundaries, and . . . as part of
their power to protect the public health, safety, and
other valid interests they have broad power to establish standards for licensing practitioners and regulating the practice of professions.” (quotation marks
omitted)).
[¶35] The Department denied Gray’s application not
because of the viewpoint he expressed on social media
but because of the false, uninvestigated information
that Gray presented as fact using the name of his Massachusetts private investigation business. The Department’s rationale for its decision goes to the heart of
professional responsibility concerns and does not chill
any speech other than that which would, for a professional investigator, violate standards of conduct in a
profession that is focused on the investigation and accurate communication of facts. See In re R. M. J., 455
U.S. 191, 203, 102 S. Ct. 929, 71 L. Ed. 2d 64 (1982)
(holding that, when a state regulates in a way that affects speech, it must have “a substantial interest and
the interference with speech must be in proportion to
the interest served”). The Department’s application
of the statutes was, therefore, narrowly tailored to
serve the significant governmental interest in maintaining standards for licensing professional investigators, who are responsible for researching and reporting
on some of the most consequential details of people’s

21a
Appendix A
lives by investigating “[t]he identity, habits, conduct,
movements, whereabouts, affiliations, associations,
transactions, reputation or character” of others. 32
M.R.S. § 8103(4-A)(A), (B); see Packingham, 137 S. Ct.
at 1736. In short, the Department’s application of the
licensing standards to Gray did not violate the First
Amendment.
The entry is:
Judgment affirmed.

22a
Appendix B
2020 WL 4517878 (Me.Super.) (Trial Order)
Superior Court of Maine.
Kennebec County
Joshua GRAY, Petitioner,
v.
STATE of Maine, Department of Public Safety,
Respondent.
No. AP-19-49.
May 22, 2020.
CIVIL ACTION
Order on Petitioner’s 80C Appeal
Before the Court is Petitioner Joshua Gray’s 80C
petition for review of the Department of Public Safety’s
(the “Department’s”) denial of his application for a Professional Investigator’s License. For the following reasons, the petition is denied.
Background
Joshua Gray is licensed as a professional investigator in Tennessee, Vermont, Massachusetts and New
Hampshire. On January 26, 2018, Mr. Gray applied for
a professional investigator’s license in Maine. On August 31, 2018, the Chief of the Maine State Police
(the “Chief ’) denied Mr. Gray’s Application. On October 11, 2018, Mr. Gray filed an 80C petition for review
of the denial of his application. On July 18, 2019, this
court remanded Mr. Gray’s application to the Department for the purposes of allowing the Commissioner

23a
Appendix B
to determine whether certain allegedly false statements that Mr. Gray published on social media were
published with “actual malice.” Gray v State of Maine,
Dep’t of Public Safety, KENSC-AP-18-65, (Me. Super.
Ct., Kennebec Cty., July 17, 2019) After conducting a
further investigation, the Chief issued a written decision on October 2, 2019 in which he determined that
Mr. Gray had made certain false statements with actual malice and that these statements demonstrated
that Mr. Gray was not fit to obtain a professional investigator license. This appeal followed.
Standard of Review
The Court reviews an administrative agency’s
decision for an abuse of discretion, error of law, or
findings not supported by the evidence. Uliano v. Bd.
of Envtl. Prot., 2009 ME 89, ¶ 12, 977 A.2d 400 (citation omitted). Questions of law are subject to de novo
review. Id. (citing York Hosp. v. Dep’t of Health & Human
Servs., 2008 ME 165, ¶ 32, 959 A.2d 67). The reviewing
court will affirm findings of fact if they are supported
by “substantial evidence in the record”, even if the
record contains inconsistent evidence or evidence contrary to the result reached by the agency. Passadumkeag
Mountain Friends v. Bd. of Environmental Prot., 2014
ME 116, ¶¶ 12, 14, 102 A.3d 1181. The party seeking
to overturn an administrative decision must “demonstrate that no competent evidence supports the
[agency’s] decision and that the record compels a contrary result.” Richardson v. Bd. of Trs. of the Me. State
Ret. Sys., 1998 ME 171, ¶ 4, 714 A.2d 154.

24a
Appendix B
Discussion
In order to obtain a professional investigator license, an applicant must demonstrate that he possesses good moral character. 32 M.R.S. § 8105(4).
Further, the Chief may refuse to issue a license if the
applicant has:
A. Engaged in conduct that evidences a lack
of ability or fitness to discharge the duty owed
by the licensee to a client or the general public; or
B. Engaged in conduct that evidences a lack
of knowledge or an inability to apply principles or skills to carry out the practice for
which the person is licensed.
Id. § 8113(6).
In this case, the record contains competent evidence to support a finding that Mr. Gray engaged in
conduct evidencing a lack of fitness to discharge duties
owed to the general public as well as the inability to
apply principles necessary to act as a professional investigator. For instance, there is record evidence that
Mr. Gray published statements on social media that a
Lieutenant in the Maine State Police was “most likely
drunk” when the Lieutenant was involved in an incident which resulted in the death of two individuals.
(R. 157-58, 162.) There is also evidence that Mr. Gray
made these statements based solely on the fact that
the Lieutenant was off-duty at the time of the incident
and that the incident occurred close to the Lieutenant’s

25a
Appendix B
home. (R. 383.) Further, there is evidence that Mr. Gray
has a lengthy history of engaging in online diatribes
against the same Lieutenant. (See e.g. R. 125, 130, 133,
198-200, 206, 239-41, 245-47; see also R. 377.) Finally,
Mr. Gray admits that his statements were speculative
and that he never had any facts about the Lieutenant’s
alcohol consumption. (Pet’r’s Br. at 6.)
Given that the context of this case is a professional
licensing matter, this evidence supports a finding that
Mr. Gray’s publication of statements to which a defamatory meaning could be attributed, see Haworth v. Feigon, 623 A.2d 150, 156-57 (Me. 1993) (holding that it
was not error for the factfinder to attribute a defamatory meaning to the appellation “drunk”), based on
nothing more than speculation constitutes reckless
disregard for the truth which is sufficient to deny his
application for a professional investigator license. See
32 M.R.S. §§ 8105(4), 8113(6).
The entry is
The Decision of the Chief of the Maine
State Police to Deny Joshua Gray’s Application for a State of Maine Professional Investigator License is AFFIRMED
Date: 5/22/2020
<<signature>>
Justice, Superior Court

26a
Appendix C
[SEAL]
STATE OF MAINE
DEPARTMENT OF PUBLIC SAFETY
MAINE STATE POLICE
JANET T. MILLS

COL JOHN E. COTE

GOVERNOR

CHIEF

MICHAEL J. SAUSCHUCK

LTC WILLIAM S. HARWOOD

COMMISSIONER

DEPUTY CHIEF

2 October 2019
Mr. Joshua A. Gray
c/o Mr. Roger L. Hurley, Esq.
48 Washington Street
Camden, ME 04843
RE: Joshua Gray v. State of Maine, Department
of Public Safety (Kennebec County
Superior Court – Augusta Dkt. No. AP-18-65)
Dear Mr. Gray:
I have reviewed your responses to the 39 questions
that were sent to your attorney to assist with the determination as to whether, per the presiding Maine Superior Court’s 18 July 2019 Order, your statements on
your NSI Investigative & Surveillance business’ Facebook page “were made with actual malice as defined by
Maine law.” “Order on Petitioner’s Appeal” at 7, Gray v.
State of Maine, Department of Public Safety, Maine Superior Court Dkt. No. AP-18-65 (07/18/2019).
Even if the pending administrative licensing matter were a defamation action – which it is not – and the

27a
Appendix C
“actual malice” legal standard were the correct standard to apply, the record as of the date of this letter
contains clear evidence that you made at least some of
your statements on your business’ Facebook page with
actual malice – i.e., “ ‘with knowledge that [they were]
false or with reckless disregard of whether [they were]
false or not.’ ” Plante v. Long, 2017 ME 189, ¶ 10 (2017)
(quoting Harte-Hanks Commc’ns, Inc. v. Connaughton,
491 U.S. 657, 659 (quoting Times v. Sullivan, 376 U.S.
254, 279-280 (1964))).
The record in this matter thus evidences the lack
of competency, analytical reasoning skills, and good
moral character needed to qualify for a Professional
Investigator license issued by the State of Maine.
***
The record developed to date contains clear evidence that at least some of your statements on your
business’ Facebook page were made with actual malice
– i.e., “ ‘with knowledge that [they were] false or with
reckless disregard of whether [they were] false or not.’ ”
Id. Three of the most apparent examples are (1) your
statements implying that LT Scott W. Ireland was not
only drinking, but was “possibl[y] drunk” or “most
likely drunk” at the time of the incident that resulted
in the death of the late Ms. Amber Fagre; (2) your
statements that LT Ireland “murdered,” “executed,” or
“killed” the late Ms. Fagre; and (3) your statements
that LT Ireland has a history of “complaints” filed with
the Maine State Police Office of Internal Affairs (now

28a
Appendix C
called the Office of Professional Standards (“OPS”))
and of Internal Affairs “investigations.”
With respect to your statements that LT Ireland was
“possibl[y] drunk” or “most likely drunk” – as well as
your statement that you “suspect[ed LT Ireland] was
drinking” – at the time of the incident that resulted in
the death of the late Ms. Amber Fagre:
In your responses to the 39 questions that you submitted, you repeatedly asserted that you based those
various statements on the following:
1.

That LT Ireland “was Off Duty” [sic]; and

2. That the incident “happened close to [LT
Ireland’s] home/personal residence.”
According to your responses to the questions, those
were the two factors that led you to speculate on your
business’ publicly-accessible Facebook page that LT
Ireland was “possibl[y] drunk” or “most likely drunk”
at the time of the incident that resulted in the death of
the late Ms. Fagre.
LT Ireland could have been engaged in countless
activities while he was at home and off duty. Based on
the record now before me, there is no indication that
he was drinking alcoholic beverages. The record reflects that LT Ireland does not consume – and never
has consumed – alcoholic beverages. See “Affidavit of
LT Scott W. Ireland,” Joshua Gray v. State of Maine,
Department of Public Safety, (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65).

29a
Appendix C
You stated in many of your responses to the questions about such statements that they were not written
with “malicious intent,” i.e., with mean-spiritedness.
The record demonstrates, however, that for a sustained
period of time – years now – you repeatedly have expressed animus toward LT Ireland, calling him –
among other things – a “dirty cop,” “corrupt,” and “evil.”
It is not credible that your statements about LT Ireland being “possibl[y]” or “most likely” “drunk” at the
time of the incident were made without “malicious intent” (i.e., mean-spiritedness). The statements instead
reflect a continuing effort to portray LT Ireland publicly in a negative light through defamatory falsehoods.
***
With respect to your statements that LT Ireland “murdered,” “executed,” or “killed” the late Ms. Fagre:
Despite the fact that at least two officers were involved in the incident that resulted in Ms. Fagre’s
death, you explained in responses to the 39 questions
that you “initially assumed” that LT Ireland fired the
shot that struck Ms. Fagre because “the shooting happened near Lt Irelands [sic] residence, and he was the
ranking officer on scene, prior complaints about Lt Ireland and he was named as a shooter in several articles.” (My underlined italicization added.)
Only almost a full year after the incident did you
correct your misstatements to inform those visiting
your business’ website that LT Ireland did not fire the

30a
Appendix C
round that struck Ms. Fagre. During the intervening
time, individuals from anywhere in the world who visited your business’ website might have read such statements and believed (and still might believe) incorrectly
that LT Ireland fired the round that struck Ms. Fagre.
And you only corrected those statements because the
Maine Office of the Attorney General issued its report
about the incident that identified another officer – and
not LT Ireland – as having shot the round that struck
Ms. Fagre.
As with the comments about LT Ireland being
“possibl[y] drunk” or “likely drunk,” you qualified the
responses to questions about these statements by saying that they were not made with “malicious intent,”
i.e., with mean-spiritedness. When you described LT
Ireland as a “killer,” and stated that he “Killed” [sic],
“murdered,” and “executed Amber Fagre in the back of
the head in cold blood,” your statements were not only
reckless because they disregarded fact, but also reflect
a sustained animus toward LT Ireland and a continued
effort to portray him publicly in a negative light
through defamatory falsehoods.
***
With respect to your statements that LT Ireland has a
history of “complaints” filed with the OPS and has a
history of Internal Affairs/OPS “investigations”:
The record before me now shows that, based on
the records available to the OPS, LT Ireland has been
the subject of only one (1) complaint and one (1) OPS

31a
Appendix C
investigation during his over 25-year career with the
Maine State Police. That sole investigation resulted
from your complaint. See “Affidavit of LT Anna H.
Love,” Joshua Gray v. State of Maine, Department of
Public Safety, (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65).
You nonetheless have recklessly perpetuated a
sustained narrative – based on alleged stories told to
you by unnamed individuals – that LT Ireland’s career
has been plagued with complaints and OPS/Internal
Affairs investigations. You continued to perpetuate
that myth in your responses to the 39 questions, further compounding your recklessness. (On a related
note, you had also stated on your business’ Facebook
page that LT Ireland has a history of “suspensions” (my
underlined italicization). In a response to one of the 39
questions, you explained that the added “s” to “suspensions” was a “typo.” Given the record before me, I do not
find that explanation credible.)
As with the prior statements I discussed above,
you again qualified your responses about these statements by saying they were not made with “malicious
intent,” i.e., with mean-spiritedness. Again, your declaration that you had no “malicious intent” in leading individuals who visited your website to think that LT
Ireland has been or is – as you continually have tried
to make him seem – a “corrupt,” “dirty cop,” is not credible. The apparent purpose in making the statements
about complaints and investigations was to continue
portray LT Ireland publicly in a negative light through

32a
Appendix C
defamatory falsehoods. Indeed, the many misstatements also appear to violate the standards of leading
industry trade groups – specifically, the Codes of Ethics
of both the National Association of Legal Investigators
(“NALI”) and the Maine Licensed Private Investigators Association (“MLPIA”).
***
The discussion here so far has been premised on
the presumption that the “actual malice” standard that
the Maine Superior Court presiding over this matter
applied is the correct standard to apply. If that were
the correct standard, the record contains clear evidence that the standard has been met.
Respectfully, however, I do not think the “actual
malice” standard is applicable in the pending matter.
This is not a defamation case. Rather, the pending
matter is an administrative licensing case in which
the licensing authority must determine whether an
applicant has the competency and character to qualify
for a license to be, and be entrusted to work as, a Professional Investigator in the State of Maine. See 32
M.R.S.A. §§ 8105(4), 8113(6).
For the reasons I have discussed thus far, I find
that you do not. Based on your responses to the 39
questions that were forwarded to you, I have concluded
that you seem unable to discern a factual statement
from a statement of opinion, and that you lack the
basic analytical skills to be a Professional Investigator
licensed by the State of Maine.

33a
Appendix C
You and Mr. Hurley have sought to frame the
pending administrative licensing matter as a First
Amendment case. To be sure: I believe you have every
right to express yourself however you choose, within
the law. But, in making my decision of whether to entrust you with a Professional Investigator license, I
have the responsibility to assess your competency and
character to be a Professional Investigator, including
by weighing the integrity of what you express to the
world on your NSI Investigation and Surveillance
business’ Facebook website.
A Professional Investigator has a duty to establish
and report facts; indeed, that is the fundamental responsibility of such an investigator. Based on the record before me, I have concluded that you are not able
to do so. The record clearly shows that you closely
looked into the February 2017 shooting incident (you
even admitted doing so in your “spare time” in one of
your 39 responses) and reported your conclusions on
your business’ Facebook page – a Facebook page that
has not only the authority of the reputation of your
business behind it, but the authority of at least the private investigator license of the State of Massachusetts
behind it as well. Yet you eventually had to correct a
number of those conclusions when the actual facts
came to light or were brought to your attention (including brought to your attention by the Assistant
Attorney General representing my agency in this matter). The fact that you belatedly corrected your misstatements of fact does not mitigate the fact of your

34a
Appendix C
poor judgment in making the assertions in the first
place.
As a matter of consumer protection, I cannot issue
a State of Maine Professional Investigator license to
someone who lacks the basic competency and requisite
good moral character to hold such a license. Your communications have demonstrated a pattern of reckless
disregard for the truth.
Accordingly, I am denying your application for a
State of Maine Professional Investigator license.
/s/ John E. Cote
COL JOHN E. COTE
CHIEF, MAINE STATE POLICE

35a
Appendix C
STATE OF MAINE
KENNEBEC, ss

JOSHUA GRAY,
Petitioner
v.
STATE OF MAINE,
DEPARTMENT OF
PUBLIC SAFETY,
Respondent

SUPERIOR COURT
CIVIL ACTION
DOCKET NO. AP-18-65
)
)
)
)
AFFIDAVIT OF
)
LT SCOTT W. IRELAND
)
)
)
)

LT Scott W. Ireland states as follows upon his personal knowledge:
1. I am the Commander of the Computer Crimes
Unit, which is located within the Bureau of State Police of the Maine Department of Public Safety.
2. I have worked for the Maine State Police for
more than twenty-five (25) years,
3. I did not consume alcoholic beverages of any
kind (including, but not limited to, beer, liquor, or wine)
on 10 February 2017,
4. I did not consume alcoholic beverages of any
kind (including, but not limited to, beer, liquor, or wine)
on 9 February 2017.

36a
Appendix C
5. I did not consume alcoholic beverages of any
kind (including, but not limited to, beer, liquor, or wine)
during 2017.
6. I have not consumed alcoholic beverages of
any kind (including, but not limited to, beer, liquor, or
wine) at any point during my career with the Maine
State Police, up to and including the date given below.
7. I have never consumed an alcoholic beverage
of any kind (including, but not limited to, beer, liquor,
or wine) during my life.
2 October 2019

/s/

Scott W. Ireland
LT Scott W. Ireland
Maine State Police

37a
Appendix C
STATE OF MAINE
KENNEBEC COUNTY
LT Scott W. Ireland personally appeared before me today and made oath that the statements made in his
Affidavit are true based upon his personal knowledge.
Dated: 2 October 2019
/s/ Carol A. Tompkins
Notary Public/Attorney-At-Law
CAROL A. TOMPKINS
[SEAL] NOTARY PUBLIC – MAINE
MY COMMISSION EXPIRES
MARCH 30, 2023

38a
Appendix C
STATE OF MAINE
KENNEBEC, ss

JOSHUA GRAY,
Petitioner
v.
STATE OF MAINE,
DEPARTMENT OF
PUBLIC SAFETY,
Respondent

SUPERIOR COURT
CIVIL ACTION
DOCKET NO. AP-18-65
)
)
)
)
)
)
)
)
)

AFFIDAVIT OF
LT ANNA H. LOVE

LT Anna H. Love states as follows upon her personal knowledge:
1. I am the Commander of the Office of Professional Standards (formerly called the Office of Internal
Affairs), which is located within the Bureau of State
Police of the Maine Department of Public Safety.
2. That, having reviewed records of the Office of
Professional Standards (“OPS”) available to me, I am
reporting:
A.

That a total of one (1) investigation of LT
Scott W. Ireland has been initiated and
conducted by OPS as a result of a personnel complaint – made by a Mr. Joshua
Gray against LT Ireland – during LT Ireland’s career with the Maine State Police;
and

39a
Appendix C
B.

That a total of one (1) personnel complaint
against LT Scott W. Ireland has been received by OPS during LT Ireland’s career
with the Maine State Police – namely,
the aforementioned personnel complaint
made by a Mr. Joshua Gray.

2 October 2019

/s/

Lt. Anna H. Love
LT Anna H. Love
Maine State Police

STATE OF MAINE
KENNEBEC COUNTY
LT Anna H. Love personally appeared before me
today and made oath that the statements made in her
Affidavit are true based upon her personal knowledge.
Dated: 2 October 2019
/s/ Carol A. Tompkins
Notary Public/Attorney-At-Law
CAROL A. TOMPKINS
[SEAL] NOTARY PUBLIC – MAINE
MY COMMISSION EXPIRES
MARCH 30, 2023

40a
Appendix C
QUESTION 1
On page 58 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“Medical Examiners report states clearly that Kadhar
was shot in the back. Specifically back of neck where
back and neck come together.”
At the time you made the assertion that the “Medical
Examiners report states clearly that Kadhar was shot
in the back. Specifically back of neck where back and
neck come together,” what was the factual basis of the
assertion? In other words, at the time you made that
assertion, on what facts known to you were you basing
the assertion that the “Medical Examiners report
states clearly that Kadhar was shot in the back. Specifically back of neck where back and neck come together”? Please also briefly explain how those facts
became known to you.
ANSWER:
Here is a picture of this actual post:

41a
Appendix C

This is my opinion and not a ‘fact’ as suggested in the
question.
This post was written on 3/15/18 after I received a picture of a portion of the report. The social media post
was based solely on the attached picture of part of the
medical examiner’s report. The picture was part of the
post and was intended for the reader to look at both

42a
Appendix C
the social media post and the text on the picture that
goes into specificity about the shooting. Specifically the
following
“Penetrating gunshot wound (A) of neck with entrance in medial left upper back at neckline, passing
back to front, left to right, and upward.”
The photo, that was part of the original post, contains
addition text about the shooting. The picture also has
‘Kadhar Bailey’s’ name in the upper left side of the
picture.
I believed at the time, and now, this social media post
to be protected first amendment speech. It was certainly not written with malicious intent.
QUESTION 2
On page 59 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“He was leaning over the center console into passenger
seat to check on Amber when Lt Ireland shot him in
the back. Bullet entered where back, shoulders and
neck come together and travel in an upward progression.”

43a
Appendix C
At the time you made the assertion that “[h]e was leaning over the center console into passenger seat to check
on Amber when Lt Ireland shot him in the back. Bullet
entered where back, shoulders and neck come together
and travel in an upward progression,” what was the
factual basis of the assertion? In other words, at the
time you made that assertion, on what facts known to
you were you basing the assertion that “[h]e was leaning over the center console into passenger seat to check
on Amber when Lt Ireland shot him in the back. Bullet
entered where back, shoulders and neck come together
and travel in an upward progression”? Please also
briefly explain how those facts became known to you.
ANSWER:
This was not a social media post. This was a response
to a comment made on the social media post referred
to in question one (1) above. The screen shots of the
actual comments are as follows:

44a

45a
Appendix C
This is my opinion and not a ‘fact’ as suggested in the
question. The comments were made as part of a conversation with Jeffrey Blake and Jo Bridgham Gray
about a social media post. When you put the comment
in context with the conversation, you can see that I was
specifically responding to information written by the
commenters and expressing my opinion based on the
context of the conversation. In addition, I was expressing an opinion that was informed by the picture of the
medical examiners report. My opinion was based on
the information available to me at the time.
I believed at the time, and now, this comment to be protected first amendment speech. It was not written with
malicious intent. Most reasonable people assume that
comments made on social media are the opinion of the
person who writes the comment.
QUESTION 3
On page 63 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page in reference to a photo:
“Bottom is when a Possible [sic] drunk, off duty and
corrupt Lt Scott Ireland of Maine State Police murdered Amber Fagre who was the passenger in the vehicle on the bottom and was not a threat to him.”

46a
Appendix C
At the time you made the assertion that LT Scott Ireland was “[p]ossible [sic] drunk,” what was the factual
basis of the assertion? In other words, at the time you
made that assertion, on what facts known to you were
you basing the assertion that LT Scott Ireland was
“[p]ossible [sic] drunk”? Please also briefly explain how
those facts became known to you
ANSWER:
Here is the actual Facebook Post:

47a
Appendix C

48a
Appendix C

This is my opinion and not a ‘fact’ as suggested in the
question.
I expressed my opinion that Lt Ireland was ‘Possible
drunk’. This opinion was based on information that Lt

49a
Appendix C
Ireland was Off Duty at the time of the shooting and it
happened close to his home / personal residence. When
I learned the State Police and AG office did not suspect
him of being drunk, I immediately posted the following
on social media: (see right & bottom pictures)

50a
Appendix C
STATEMENT
“Look at the difference
in windshields. Top is
recent police shooting
in California. Bottom is
when a Possible drunk,
off duty and corrupt Lt
Scott Ireland of Maine
State Police murdered
Amber Fagre who was
the passenger in the vehicle on the bottom and
was not a threat to him.”

SOURCE//FINDING
DIR. MacMaster; Det.
Gioia: Gray is making a
false comparison from a
shooting in California to
the Vassalboro shooting.
In addition, Det. Gioia met
with Lt. Ireland almost
immediately upon his
arrival to the scene and
detected nothing that
would indicate any alcohol
use. Also, as stated earlier,
Lt. Ireland did not shoot
and kill Fagre.

“What a vehicle looks
like when a possibly
drunk Lt Scott Ireland
murders a passenger.”

DIR. MacMaster; Det.
Gioia: Det. Gioia met
with and interviewed
Lt. Ireland. He detected
nothing that would indicate any alcohol use.

While the State did not think he was drunk based on
‘detecting nothing that would indicate alcohol use’, it
seems that no scientific tests were conducted to confirm that. Scientific test of all police involved in this
shooting would have eliminated this “possible” opinion.
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.

51a
Appendix C
QUESTION 4
On page 63 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page in reference to a photo:
“Bottom is when a Possible [sic] drunk, off duty and
corrupt Lt Scott Ireland of Maine State Police murdered Amber Fagre who was the passenger in the vehicle on the bottom and was not a threat to him.”
At the time you made the assertion that LT Scott Ireland “murdered Amber Fagre,” what was the factual
basis of the assertion? In other words, at the time you
made that assertion (namely, on or about 15 November
2017), on what facts known to you were you basing the
assertion that LT Scott Ireland “murdered Amber
Fagre”? Please also briefly explain how those facts became known to you.
ANSWER:
I did initially think that Lt Ireland Shot Amber Fagre.
When I learned that Trooper Parks actually shot her, I
immediately updated that information on social media
with the following post. (see picture to right)

52a
Appendix C

I initially assumed Lt Ireland fired the shot that killed
Amber Fagre based on the information I had available
to me at the time. Notably the shooting happened near

53a
Appendix C
Lt Irelands personal residence, and he was the ranking
officer on scene, prior complaints about Lt Ireland
and he was named as a shooter in several newspaper
articles.
I believed at the time, and now, this social media post
to be protected first amendment speech.
QUESTION 5
On page 72 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“[LT Scott Ireland’s] crime spree will continue until he
is held accountable.”
At the time you made the assertion that LT Scott Ireland’s “crime spree will continue,” what was the factual
basis of the assertion? In other words, at the time you
made that assertion (namely, on or about 24 April
2017), on what facts known to you were you basing the
assertion that LT Scott Ireland’s “crime spree will continue”? Please also briefly explain how those facts became known to you.

54a
Appendix C
ANSWER:
Here is the original post: (see picture to right)

This is my opinion and not a ‘fact’ as suggested in the
question.
As you can see, this quote is part of a much longer post
that is not mentioned in the question. Cutting up the
actual social media post and asking a question based
on partial information seems disingenuous at best. The
longer post answers your question.

55a
Appendix C
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.
QUESTION 6
On page 73 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page in reference to a photo:
“The dead end, narrow street that Amber Fagre was
murdered on. This is the same street her killer, Lt Scott
Ireland, lives on.”
At the time you made the assertion that LT Scott Ireland was the “killer” of the late Ms. Fagre, what was
the factual basis of the assertion? In other words, at
the time you made that assertion (namely, on or about
18 April 2017), on what facts known to you were you
basing the assertion that LT Scott Ireland was the
“killer” of the late Ms. Amber Fagre? Please also briefly
explain how those facts became known to you.

56a
Appendix C
ANSWER:
Here is the actual post: (see picture to right)

57a
Appendix C
This is my opinion and not a ‘fact’ as suggested in the
question.
I initially assumed Lt Ireland shot her based on the
information I had available to me at the time. Notably
the shooting happened near Lt Irelands personal residence, and he was the ranking officer on scene, prior
complaints about Lt Ireland and he was named as a
shooter in several newspaper articles. When I learned
that Lt Ireland did not shoot Amber Fagre, I posted the
following correction on 3/8/18 “ . . . Trooper Jeff Parks
fired the shot that killed Amber. I have previously
thought that it was Lt. Scott Ireland. I was wrong . . . ”
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.
QUESTION 7
On page 73 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page in reference to a photo:
“The dead end, narrow street that Amber Fagre was
murdered on. This is the same street her killer, Lt Scott
Ireland, lives on.”
At the time you made the assertion that “[t]his is the
same street . . . Lt Scott Ireland[ ] lives on,” what was

58a
Appendix C
the factual basis of the assertion? In other words, at
the time you made that assertion (namely, on or about
18 April 2017), on what facts known to you were you
basing the assertion that “[t]his is the same street . . .
Lt Scott Ireland[ ] lives on”? Please also briefly explain
how those facts became known to you.
ANSWER:
This is the same social media post from question 6.
This is my opinion and not a ‘fact’ as suggested in the
question.
I believe that I learned Lt Ireland lived on the same
street as the shooting using public information that is
readily available to anyone via online search engines.
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.
QUESTION 8
On page 76 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page in reference to a photo:
“Pictured is a very dirty & evil cop name Lt. Scott
Ireland. His latest crime was the killing of Amber
Fagre.”

59a
Appendix C
At the time you made the assertion that “the killing of
Amber Fagre” was LT Scott Ireland’s “latest crime,”
what was the factual basis of the assertion? In other
words, at the time you made that assertion (namely, on
or about 29 March 2017), on what facts known to you
were you basing the assertion that “the killing of Amber Fagre” was LT Scott Ireland’s “latest crime”? Please
also briefly explain how those facts became known to
you.
ANSWER:
Here is the actual Post:

60a
Appendix C

This is my opinion and not a ‘fact’ as suggested in the
question.
I initially assumed Lt Ireland shot her based on the
information I had available to me at the time. . Notably
the shooting happened near Lt Irelands personal residence, and he was the ranking officer on scene, prior

61a
Appendix C
complaints about Lt Ireland and he was named as a
shooter in several newspaper articles. When I learned
that Lt Ireland did not shoot Amber Fagre, I posted the
following correction on 3/8/18 “ . . . Trooper Jeff Parks
fired the shot that killed Amber. I have previously
thought that it was Lt. Scott Ireland. I was wrong . . . ”
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.
QUESTION 9
On page 78 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“I am now receiving lawsuit threats for warning people
about Dirty State Trooper Lt Scott Ireland who has
been named the primary shooter in the death of Amber
Fagre.”
At the time you made the assertion that LT Scott Ireland was “named the primary shooter in the death of
Amber Fagre,” what was the factual basis of the assertion? In other words, at the time you made that assertion (namely, on or about 28 February 2017), on what
facts known to you were you basing the assertion that
LT Scott Ireland was “named the primary shooter in

62a
Appendix C
the death of Amber Fagre”? Please also briefly explain
how those facts became known to you.
ANSWER:
Here is the actual Post:

63a
Appendix C
This is my opinion and not a ‘fact’ as suggested in the
question.
I initially assumed Lt Ireland shot her based on the
information I had available to me at the time. . Notably
the shooting happened near Lt Irelands personal residence, and he was the ranking officer on scene, prior
complaints about Lt Ireland and he was named as a
shooter in several newspaper articles. When I learned
that Lt Ireland did not shoot Amber Fagre, I posted the
following correction on 3/8/18 “ . . . Trooper Jeff Parks
fired the shot that killed Amber. I have previously
thought that it was Lt. Scott Ireland. I was wrong . . . ”
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.
QUESTION 10
On page 84 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“Lt. Scott Ireland has been on a police sanctioned crime
spree for the past two decades.”
At the time you made the assertion that LT Scott Ireland “has been on a police sanctioned crime spree for
the past two decades,” what was the factual basis of the

64a
Appendix C
assertion? In other words, at the time you made that
assertion (namely, on or about 17 February 2017), on
what facts known to you were you basing the assertion
that LT Scott Ireland “has been on a police sanctioned
crime spree for the past two decades”? Please also
briefly explain how those facts became known to you.
ANSWER
Here is the Facebook post

This opinion is based on prior complaints filed against
Lt Ireland with the State Police and postings on social
media by people complaining about Lt Ireland using
his position to intimidate people. Including several
YouTube videos.
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.

65a
Appendix C
QUESTION 11
On page 85 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“One of the officers involved is a dirty cop who has a
history of internal affairs and civilian complaints. He
is Lt Scott Ireland.”
At the time you made the assertion that LT Scott Ireland “has a history of internal affairs and civilian complaints,” what was the factual basis of the assertion?
In other words, at the time you made that assertion, on
what facts known to you were you basing the assertion
that LT Scott Ireland “has a history of internal affairs
and civilian complaints”? Please also briefly explain
how those facts became known to you.
ANSWER:
Here is the actual post:

66a
Appendix C

67a
Appendix C
This is my opinion and not a ‘fact’ as suggested in the
question.
You can see that a significant portion of this social media post is not included in the question.
I have made an internal affairs complaint about Lt Ireland. I have heard of others that made complaints
about Lt Ireland. There is at least one YouTube video
of a Maine citizen making a complaint against Lt Ireland. I informed Lt Anna Love during my internal affairs complaint there were others who shared my
concerns. I sincerely believed then, and now, that Lt
Ireland has a history of internal affairs complaints. I
never said the complaints were sustained or not sustained. In fact I wrote in this post “He always manages
to get cleared by internal affairs . . . ”
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.
QUESTION 12
On page 85 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page in reference to a photo:
“Here is a picture of Ambroshia Fagre, 18 the young
girl Lt. Scott Ireland Killed outside his house. . . .”

68a
Appendix C
At the time you made the assertion that LT Scott Ireland “Killed” the late Ms. Amber Fagre, what was the
factual basis of the assertion? In other words, at the
time you made that assertion (namely, on or about 16
February 2017), on what facts known to you were you
basing the assertion that LT Scott Ireland “Killed” the
late Ms. Amber Fagre? Please also briefly explain how
those facts became known to you.
ANSWER:
Here is the actual social media post:

69a
Appendix C

This is my opinion and not a ‘fact’ as suggested in the
question.

70a
Appendix C
I initially assumed Lt Ireland shot her based on the
information I had available to me at the time. Notably
the shooting happened near Lt Irelands personal residence, and he was the ranking officer on scene, prior
complaints about Lt Ireland and he was named as a
shooter in several newspaper articles. When I learned
that Lt Ireland did not shoot Amber Fagre, I posted the
following correction on 3/8/18 “ . . . Trooper Jeff Parks
fired the shot that killed Amber. I have previously
thought that it was Lt. Scott Ireland. I was wrong . . . ”
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.
QUESTION 13
On page 147 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“I have been in contact with some family members and
know for a fact they want justice. They sent me the report.”
At the time you made the assertion that you “have
been in contact with some family members and know
for a fact they want justice. They sent me the report,”
what was the factual basis of the assertion? In other

71a
Appendix C
words, at the time you made that assertion, on what
facts known to you were you basing the assertion that
you “have been in contact with some family members
and know for a fact they want justice. They sent me the
report”? Please also briefly explain how those facts became known to you.
ANSWER:
Here is a screen shot of the Statement.

This was not a social media post. This was a comment.
I was replying to a comment from Debra Churchhill.
When you read the comment in context, it offers the
answer to the States question. Debra Churchill was
suggesting the family would not want information
posted about their deceased relative and I was

72a
Appendix C
answering her. ‘The report’ mentioned in this comment, refers to the Medical Examiners report. However I should clarify that I was only sent a picture of
part of the report.
I believed at the time, and now, this comment to be protected first amendment speech. It was not written with
malicious intent.
QUESTION 14
On page 158 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page in reference to a photo:
“What a vehicle looks like when a possibly drunk Lt
Scott Ireland murders a passenger.”
At the time you made the assertion that LT. Ireland
was “possibly drunk,” what was the factual basis of the
assertion? In other words, at the time you made that
assertion (namely, on or about 15 November 2017), on
what facts known to you were you basing the assertion
that LT. Ireland was “possibly drunk”? Please also
briefly explain how those facts became known to you.
ANSWER:
Here is the actual Post:

73a
Appendix C

74a
Appendix C

See following page for complete answer
This is my opinion and not a ‘fact’ as suggested in the
question.

75a
Appendix C
I expressed my opinion that Lt Ireland was ‘Possible
drunk’. This opinion was based on information that Lt
Ireland was Off Duty at the time of the shooting and it
happened close to his home / personal residence. When
I learned the State Police and AG office did not suspect
him of being drunk, I immediately posted the following
on social media: (see right & bottom pictures)

While the State did not think he was drunk based on
‘detecting nothing that would indicate alcohol use’, it
seems that no scientific tests were conducted to confirm that. Scientific test of all police involved in this
shooting would have eliminated this “possible” opinion.

76a
Appendix C
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.
QUESTION 15
On page 159 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“It takes a viral video and public outrage for police to
be held accountable. Without the video and public pressure, this corrupt cop would continue his crime spree
and possibly get a promotion. Much like Maine Troopers Lt Scott Ireland and Det. David Pelletier who do
this kind of stuff on a daily basis.”
At the time you made the assertion that LT Ireland
“do[es] this kind of stuff on a daily basis,” what was the
factual basis of the assertion? In other words, at the
time you made that assertion (namely, on or about 2
November 2017), on what facts known to you were you
basing the assertion that LT Ireland “do[es] this kind
of stuff on a daily basis”? Please also briefly explain
how those facts became known to you.
ANSWER:
Here is the actual social media post.

77a
Appendix C

This is my opinion and not a ‘fact’ as suggested in the
question. I was making a comment on a viral video
about a nurse who was arrested for refusing to take
blood from an unconscious man. I am entitled to have
an opinion. This opinion was based on prior

78a
Appendix C
complaints, YouTube videos and several newspapers
articles.
I believed at the time, and now, this social media post
to be protected first amendment speech.
QUESTION 16
On page 160 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“Despite all my efforts, on February 10 2017, [LT Scott
Ireland] murdered an innocent 18 year old girl.”
At the time you made the assertion that LT Scott
Ireland “murdered an innocent 18 year old girl,” what
was the factual basis of the assertion? In other words,
at the time you made that assertion (namely, on or
about 19 September 2017), on what facts known to you
were you basing the assertion that LT Scott Ireland
“murdered an innocent 18 year old girl”? Please also
briefly explain how those facts became known to you.

79a
Appendix C
ANSWER:

80a
Appendix C

This is my opinion and not a ‘fact’ as suggested in the
question.
I initially assumed Lt Ireland shot her based on the
information I had available to me at the time. Notably
the shooting happened near Lt Irelands personal

81a
Appendix C
residence, and he was the ranking officer on scene,
prior complaints about Lt Ireland and he was named
as a shooter in several newspaper articles. When I
learned that Lt Ireland did not shoot Amber Fagre, I
posted the following correction on 3/8/18 “ . . . Trooper
Jeff Parks fired the shot that killed Amber. I have previously thought that it was Lt. Scott Ireland. I was
wrong . . . ”I believed at the time, and now, this social
media post to be protected first amendment speech. It
was not written with malicious intent.
QUESTION 17
On page 161 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“Also this [namely, a use of deadly force incident that
involved LT Scott Ireland] happened right outside Lt
Irelands personal residence! He was off duty at the
time and possible [sic] drunk.”
At the time you made the assertion that “this happened outside Lt Irelands personal residence,” what
was the factual basis of the assertion? In other words,
at the time you made that assertion, on what facts
known to you were you basing the assertion that “this
happened outside Lt Irelands personal residence”?

82a
Appendix C
Please also briefly explain how those facts became
known to you.
ANSWER:
This is my opinion and not a ‘fact’ as suggested in the
question.
The State confirmed that it happened ½ mile down the
road from his house. I posted this correction
immediately after learning this information: (see
picture to right)

I posted this opinion based on the information that was
available to me at the time. Namely that Lt Ireland
lived on the same road, it was a short dead end road
and it was in a semi-rural area. Meaning that up to one

83a
Appendix C
(1) mile from the house would be considered ‘right outside your house’ in my opinion. I certainly did not have
malicious intentions.
I believed at the time, and now, this social media post
to be protected first amendment speech.
QUESTION 18
On page 161 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“Also this happened right outside Lt Irelands personal
residence! He was off duty at the time and possible [sic]
drunk.”
At the time you made the assertion that LT Scott Ireland was “possible [sic] drunk,” what was the factual
basis of the assertion? In other words, at the time you
made that assertion, on what facts known to you were
you basing the assertion that LT Scott Ireland was
“possible [sic] drunk”? Please also briefly explain how
those facts became known to you.
ANSWER:
This is my opinion and not a ‘fact’ as suggested in the
question.

84a
Appendix C
I expressed my opinion that Lt Ireland was ‘Possible
drunk’. This opinion was based on information that Lt
Ireland was Off Duty at the time of the shooting and it
happened close to his home / personal residence. I
never stated that he was drunk. When I learned the
State Police and AG office did not suspect him of being
drunk, I immediately posted the following on social
media: (see right)

While the State did not think he was drunk based on
‘detecting nothing that would indicate alcohol use’, it
seems that no scientific tests were conducted to confirm that. Scientific test of all police involved in this
shooting would have eliminated this “possible” opinion.

85a
Appendix C
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.
QUESTION 19
On page 161 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“Over two dozen people have come forward claiming Lt
Ireland violated their rights. . . . He has a history of
threatening people, internal affairs trouble and now
suspensions.”
At the time you made the assertion that LT Scott Ireland has “suspensions,” what was the factual basis of
the assertion? In other words, at the time you made
that assertion, on what facts known to you were you
basing the assertion that LT Scott Ireland has “suspensions”? Please also briefly explain how those facts became known to you.
ANSWER
This is my opinion and not a ‘fact’ as suggested in the
question. However specifically pertaining to suspensions. I have always been under the impression that
when an officer is placed under an internal affairs

86a
Appendix C
investigation, they are suspended or placed on modified desk duty. This was my sincerely held belief at the
time and now. I was also told that Lt Ireland had been
placed on paid administrative leave until the conclusion of the AG’s investigation into the shooting.
As to the word ‘suspensions’, that is a typo, it should
have been the word “suspension”, but again it is my
understanding that as a police office, if you fire your
weapon and kill someone, you are placed on suspension
with pay until the outcome of the investigation.
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.
QUESTION 20
On page 162 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“The bullet trajectories clearly show the cops were not
in front of the vehicle. They were well off to the side
and out of danger. Not to mention Lt Ireland was most
likely drunk!!!”
At the time you made the assertion that the “bullet trajectories clearly show the cops were not in front of the
vehicle,” what was the factual basis of the assertion?

87a
Appendix C
In other words, at the time you made that assertion, on
what facts known to you were you basing the assertion
that the “bullet trajectories clearly show the cops were
not in front of the vehicle”? Please also briefly explain
how those facts became known to you
ANSWER:
This is my opinion and not a ‘fact’ as suggested in the
question. This opinion was based on looking at some
pictures that were sent to me. I also showed them to
some other PI friends. I posted about this on April 5,
2017:

88a
Appendix C

89a
Appendix C

90a
Appendix C

I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.

91a
Appendix C
QUESTION 21
On page 162 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“The bullet trajectories clearly show the cops were not
in front of the vehicle. They were well off to the side
and out of danger. Not to mention Lt Ireland was most
likely drunk!!!”
At the time you made the assertion that “Lt Ireland
was most likely drunk,” what was the factual basis of
the assertion? In other words, at the time you made
that assertion, on what facts known to you were you
basing the assertion that “Lt Ireland was most likely
drunk”? Please also briefly explain how those facts became known to you.
ANSWER:
This is my opinion and not a ‘fact’ as suggested in the
question.
I expressed my opinion that Lt Ireland was ‘most likely
drunk’. This opinion was based on information that Lt
Ireland was Off Duty at the time of the shooting and it
happened close to his home / personal residence. When
I learned the State Police and AG office did not suspect
him of being drunk, I immediately posted the following
on social media: (see right)

92a
Appendix C

While the State did not think he was drunk based on
‘detecting nothing that would indicate alcohol use’, it
seems that no scientific tests were conducted to confirm that. Scientific test of all police involved in this
shooting would have eliminated this “possible” opinion.
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.
QUESTION 22
On page 164 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County

93a
Appendix C
Superior Court – Augusta Dkt. No. AP-18-65), you asserted the following on your NSI Investigation & Surveillance business’ Facebook page:
“I predicted he [LT Scott Ireland] would kill someone
based on previous contact with him. So when he actually killed this 18 year old girl, I felt guilty I had not
done more to warn people.”
At the time you made the assertion that LT Scott Ireland “actually killed this 18 year old girl,” what was
the factual basis of the assertion? In other words, at
the time you made that assertion, on what facts known
to you were you basing the assertion that LT Scott Ireland “actually killed this 18 year old girl”? Please also
briefly explain how those facts became known to you.
ANSWER
I did initially think that Lt Ireland Shot Amber Fagre.
When I learned that Trooper Parks actually shot her, I
immediately updated that information on social media
with the following post. (see picture to right)

94a
Appendix C

I initially assumed Lt Ireland shot her based on the
information I had available to me at the time. Notably
the shooting happened near Lt Irelands personal

95a
Appendix C
residence, and he was the ranking officer on scene,
prior complaints about Lt Ireland and he was named
as a shooter in several newspaper articles.
I believed at the time, and now, this social media post
to be protected first amendment speech.
QUESTION 23
On page 165 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“The trajectory of the bullets prove they were not in
fear for their lives.”
At the time you made the assertion that “[t]he trajectory of the bullets prove they were not in fear for their
lives,” what was the factual basis of the assertion? In
other words, at the time you made that assertion, on
what facts known to you were you basing the assertion
that “[t]he trajectory of the bullets prove they were not
in fear for their lives”? Please also briefly explain how
those facts became known to you.
ANSWER
This is my opinion and not a ‘fact’ as suggested in the
question. This opinion was based on looking at some
pictures that were sent to me. I also showed them to

96a
Appendix C
some other PI friends. I posted about this on April 5,
2017:

97a
Appendix C

98a
Appendix C

I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.

99a
Appendix C
QUESTION 24
On page 166 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“I have seen the vehicle Amber [Fagre] was in and the
damage is not consistent with ramming.”
At the time you made the assertion that you “have seen
the vehicle Amber [Fagre] was in and the damage is
not consistent with ramming,” what was the factual
basis of the assertion? In other words, at the time you
made that assertion, on what facts known to you were
you basing the assertion that you “have seen the vehicle Amber [Fagre] was in and the damage is not consistent with ramming”? Please also briefly explain how
those facts became known to you.
ANSWER
This is my opinion and not a ‘fact’ as suggested in the
question. I had seen a picture of the vehicle. In fact, I
shared that picture on social media. It was my opinion
at the time the damage in the picture was inconsistent with a vehicle violently ramming another vehicle. When I learned the vehicles did collide with one
another, I immediately posted this correction: see picture on right.

100a
Appendix C

As you can see in this correction, posted July 12, 2018,
I answered the question that is currently being asked.
I wrote in the post “over the past year I have

101a
Appendix C
repeated(ly) asked for any proof or pictures that
Kadhar Bailey actually rammed the police cruiser.
Several people told me the police cruiser was not
rammed and the photos I received of the car Amber
was in did not look like a major accident happened.
However today Assistant Attorney General Kent Avery
sent me the following black and white pictures that indicate the vehicles did collide. So I would like to correct
myself based on this evidence”
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.
QUESTION 25
On page 166 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“Also the trajectory of the bullets show they came from
the right passenger side and not directly in front.”
At the time you made the assertion that “the trajectory
of the bullets show they came from the right passenger
side and not directly in front,” what was the factual basis of the assertion? In other words, at the time you
made that assertion, on what facts known to you were
you basing the assertion that “the trajectory of the

102a
Appendix C
bullets show they came from the right passenger side
and not directly in front”? Please also briefly explain
how those facts became known to you.
ANSWER
This is my opinion and not a ‘fact’ as suggested in the
question. This opinion was based on looking at some
pictures that were sent to me. I also showed them to
some other PI friends. I posted about this on April 5,
2017:

103a
Appendix C

104a
Appendix C

105a
Appendix C

I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.

106a
Appendix C
QUESTION 26
On page 166 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“Lt. Ireland has been the subject of multiple internal
affairs investigations and now a suspension.”
At the time you made the assertion that LT Scott Ireland “has been the subject of multiple internal affairs
investigations,” what was the factual basis of the assertion? In other words, at the time you made that assertion, on what facts known to you were you basing
the assertion that LT Scott Ireland “has been the subject of multiple internal affairs investigations”? Please
also briefly explain how those facts became known to
you.
ANSWER
This is my opinion and not a ‘fact’ as suggested in the
question.
I have made an internal affairs complaint about Lt Ireland. I have heard of others that made complaints
about Lt Ireland. There is at least one YouTube video
of a Maine citizen making a complaint against Lt Ireland. I informed Lt Anna Love during my internal affairs complaint there were others who shared my
concerns. I sincerely believed then, and now, that Lt

107a
Appendix C
Ireland has a history of internal affairs complaints. I
never said the complaints were sustained or not sustained. In fact I wrote in one post “He always manages
to get cleared by internal affairs . . . ”
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.
QUESTION 27
On page 166 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“Lt. Ireland has been the subject of multiple internal
affairs investigations and now a suspension.”
At the time you made the assertion that LT Scott Ireland “has been the subject of . . . a suspension,” what
was the factual basis of the assertion? In other words,
at the time you made that assertion, on what facts
known to you were you basing the assertion that LT
Scott Ireland “has been the subject of . . . a suspension”? Please also briefly explain how those facts became known to you

108a
Appendix C
ANSWER
This is my opinion and not a ‘fact’ as suggested in the
question. However specifically pertaining to suspensions. I have always been under the impression that
when an officer is placed under an internal affairs investigation, they are suspended or placed on modified
desk duty. This was my sincerely held belief at the time
and now. I was also told that Lt Ireland had been
placed on paid administrative leave until the conclusion of the AG’s investigation into the shooting. Again
it is my understanding that as a police office, if you
fire your weapon and kill someone, you are placed on
suspension with pay until the outcome of the investigation.
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.
QUESTION 28
On page 168 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“Also the bullet holes show trajectories inconsistent
with the official police story.”

109a
Appendix C
At the time you made the assertion that “the bullet
holes show trajectories inconsistent with the official
police story,” what was the factual basis of the assertion? In other words, at the time you made that assertion, on what facts known to you were you basing the
assertion that “the bullet holes show trajectories inconsistent with the official police story”? Please also
briefly explain how those facts became known to you.
ANSWER
This is my opinion and not a ‘fact’ as suggested in the
question. This opinion was based on looking at some
pictures that were sent to me. I also showed them to
some other PI friends. I posted about this on April 5,
2017:

110a
Appendix C

111a
Appendix C

112a
Appendix C

I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.

113a
Appendix C
QUESTION 29
On page 173 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“Lt Ireland is currently on paid administrative leave
for murdering an 18 year old girl Amber Fagre.”
At the time you made the assertion that LT Scott Ireland was on administrative leave for “murdering an 18
year old girl Amber Fagre,” what was the factual basis
of the assertion? In other words, at the time you made
that assertion, on what facts known to you were you
basing the assertion that LT Scott Ireland was “on paid
administrative leave for murdering an 18 year old girl
Amber Fagre”? Please also briefly explain how those
facts became known to you.
ANSWER
This is my opinion and not a ‘fact’ as suggested in the
question. I have always been under the impression
that when an officer is placed under an internal affairs
investigation, they are suspended or placed on modified desk duty. This was my sincerely held belief at the
time and now. I was also told that Lt Ireland had been
placed on paid administrative leave until the conclusion of the AG’s investigation into the shooting. Again
it is my understanding that as a police office, if you fire

114a
Appendix C
your weapon and kill someone, you are placed on suspension with pay until the outcome of the investigation.
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.
QUESTION 30
On page 176 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“Lt Scott Ireland and Det. David Pelletier are dirty
Maine State Police Troopers. I live in fear for my life
because of them. If I end up dead, they did it. Please
share.”
At the time you made the assertion that, “[i]f [you] end
up dead, [LT Scott Ireland and DET David Pelletier]
did it,” what was the factual basis of the assertion? In
other words, at the time you made that assertion, on
what facts known to you were you basing the assertion
that “[i]f [you] end up dead, they did it”? Please also
briefly explain how those facts became known to you.

115a
Appendix C
ANSWER
I have been openly critical of both Lt Ireland & Det
Pelleteir and just a few months before this posting, I
was reminded of the death of Amber Fagre and that
bothered me, especially with the knowledge of additional complaints about Lt Ireland & Det Pelletier. I
actually do fear for my life based upon complaints and
comments I have read about them.
I
QUESTION 31
On page 177 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“Lt Ireland has intimidated suspects, retaliated against
people that won in court and murdered Amber Fagre.”
At the time you made the assertion that LT Scott Ireland “murdered Amber Fagre,” what was the factual
basis of the assertion? In other words, at the time you
made that assertion (namely, on or about 24 April
2017), on what facts known to you were you basing the
assertion that LT Scott Ireland “murdered Amber
Fagre”? Please also briefly explain how those facts became known to you.

116a
Appendix C
ANSWER
I did initially think that Lt Ireland Shot Amber Fagre.
When I learned that Trooper Parks actually shot her, I
immediately updated that information on social media
with the following post. (see picture to right)

117a
Appendix C
I initially assumed Lt Ireland shot her based on the
information I had available to me at the time. Notably
the shooting happened near Lt Irelands personal residence, and he was the ranking officer on scene, prior
complaints about Lt Ireland and he was named as a
shooter in several newspaper articles.
I believed at the time, and now, this social media post
to be protected first amendment speech.
QUESTION 32
On page 180 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“But I will say that a known dirty cop, Lt Scott W Ireland, was the primary shooter AND just happened to
live on the street where the shooting happened. I suspect he was off duty and drinking just before this happened.”
At the time you made the assertion that “you suspect[ed]” that LT Scott Ireland was “drinking just before this happened,” what was the factual basis of the
assertion? In other words, at the time you made that
assertion, on what facts known to you were you basing
the assertion “you suspect[ed]” that LT Scott Ireland

118a
Appendix C
“was “drinking just before this happened”? Please also
briefly explain how those facts became known to you.
ANSWER
I expressed my opinion that Lt Ireland was ‘I suspect
he was off duty and drinking’. This opinion was based
on information that Lt Ireland was Off Duty at the
time of the shooting and it happened close to his home
/ personal residence. I never stated that he was drunk.
When I learned the State Police and AG office did not
suspect him of being drunk, I immediately posted the
following on social media: (see right)

While the State did not suspect the was drunk based
on ‘detecting nothing that would indicate alcohol use’,

119a
Appendix C
it seems that no scientific tests were conducted to confirm that Lt Ireland was not drunk. Scientific test of all
police involved in this shooting would have eliminated
this opinion.
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.
QUESTION 33
On page 182 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“The police claimed he was in a stolen vehicle to help
justify the killings. The official police story is 100% fiction.”
At the time you made the assertion that “[t]he official
police story is 100% fiction,” what was the factual basis
of the assertion? In other words, at the time you made
that assertion, on what facts known to you were you
basing the assertion that “[t]he official police story is
100% fiction”? Please also briefly explain how those
facts became known to you.

120a
Appendix C
ANSWER
I was informed by the owner of the Dodge Durango
that the police report of it being stolen was false. The
owner told me that Kadhar Bailey had permission to
drive this vehicle. This was my information when I
posted this opinion.
QUESTION 34
On page 183 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“I am a private investigator from Boston who warned
in 2015 that Lt Scott Ireland would kill someone. Everyone ignored my warnings and unfortunately he did
exactly what I warned he would do. So I have been
looking into the shooting in my spare time. I have already uncovered evidence that proves the official police
story is completely false.”
At the time you made the assertion that you were
“looking into the shooting in [your] spare time,” what
was the factual basis of the assertion? In other words,
at the time you made that assertion, on what facts
known to you were you basing the assertion that you
were “looking into the shooting in [your] spare time”?

121a
Appendix C
Please also briefly explain how those facts became
known to you.
ANSWER
This quote is a comment and not a social media post.
Because I did not look into the shooting while at work,
but only in my spare time. I was not hired by anyone
and never went into Maine to look into this. I pretty
much relied on social media.
QUESTION 35
On page 183 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“I am a private investigator from Boston who warned
in 2015 that Lt Scott Ireland would kill someone. Everyone ignored my warnings and unfortunately, he did
exactly what I warned he would do. So I have been
looking into the shooting in my spare time. I have already uncovered evidence that proves the official police
story is completely false.”
At the time you made the assertion that you “have already uncovered evidence that proves the official police
story is completely false,” what was the factual basis of
the assertion? In other words, at the time you made
that assertion, on what facts known to you were you

122a
Appendix C
basing the assertion that you “have already uncovered
evidence that proves the official police story is completely false”? Please also briefly explain how those
facts became known to you.
ANSWER
This quote is a comment and not a social media post.
My comment or opinion was based on information from
owner of the Dodge Durango, pictures of Dodge Durango, picture of a portion of the medical report for
Kadhar Bailey and the fact there were no scientific
tests to determine if there were drinking by police.
Once you find holes in a report, you tend to disbelieve
the entire report.
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.
QUESTION 36
On page 190 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“Lt Scott Ireland hates it when people get off on a technicality and so he makes himself the judge, jury and
executioner. That’s why he executed Amber Fagre in
the back of the head in cold blood.”

123a
Appendix C
At the time you made the assertion that LT Scott Ireland “executed Amber Fagre in the back of the head in
cold blood,” what was the factual basis of the assertion?
In other words, at the time you made that assertion
(namely, on or about 19 February 2017), on what facts
known to you were you basing the assertion that LT
Scott Ireland “executed Amber Fagre in the back of the
head in cold blood”? Please also briefly explain how
those facts became known to you.
ANSWER
I did initially think that Lt Ireland Shot Amber Fagre.
I assumed Lt Ireland shot her based on the information I had available to me at the time. Notably the
shooting happened near Lt Irelands personal residence, and he was the ranking officer on scene, prior
complaints about Lt Ireland and he was named as a
shooter in several newspaper articles
The basis of my opinion was from Newspaper reports
indicataing that Lt. Ireland was a shooter in an incident that killed Kadhar and Amber; verbal reports
from a close friend of Amber Fagre on her injuries,
photo’s of the Dodge Durango as to show trajectory of
bullets fired by police and medical records on injuries
to Kadhar Bailey also Amber Fagre.was not in the possession weapon.
When I learned that Trooper Parks actually shot her, I
immediately updated that information on social media
with the following post. (see picture to right)

124a
Appendix C

125a
Appendix C
QUESTION 37
On page 191 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“I have been warning for years that Lt Scott Ireland is
a powder keg. Now he has murdered two people right
outside his house.”
At the time you made the assertion that LT Scott Ireland “murdered two people,” what was the factual basis of the assertion? In other words, at the time you
made that assertion (namely, on or about 16 February
2017), on what facts known to you were you basing the
assertion that LT Scott Ireland “murdered two people”? Please also briefly explain how those facts became known to you.
ANSWER
Actually, the entire post reads as follows. “I have been
warning for years that Lt. Scott Ireland is a powder
keg. Now he has murdered two people right outside his
house. If we don’t stand up and demand answers, he
will get away with it.”
I did initially think that Lt Ireland Shot Amber Fagre.
When I learned that Trooper Parks actually shot her,
I immediately updated that information on social
media with the following post. (see picture to right) I

126a
Appendix C
initially assumed Lt Ireland shot her based on the information I had available to me at the time. Notably
the shooting happened near Lt Irelands personal residence, and he was the ranking officer on scene, prior
complaints about Lt Ireland and he was named as a
shooter in several newspaper articles. The basis of my
opinion was from Newspaper reports indicataing that
Lt. Ireland was a shooter in an incident that killed
Kadhar and Amber; verbal reports from a close friend
of Amber Fagre on her injuries, photo’s of the Dodge
Durango as to show trajectory of bullets fired by police
and medical records on injuries to Kadhar Bailey. Also
Amber Fagre.was not in the possession weapon and it
appeared that no scientific drug or alcohol test was
conducted.

127a
Appendix C

I believed at the time, and now, this social media post
to be protected first amendment speech.

128a
Appendix C
QUESTION 38
On page 198 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:
“I have been warning about this dirty cop for years . . .
now Lt Scott Ireland has shot and killed a [sic] 25 and
18 year old kids.”
At the time you made the assertion that LT Scott Ireland “shot and killed a [sic] 25 and 18 year old kids,”
what was the factual basis of the assertion? In other
words, at the time you made that assertion (namely, on
or about 16 February 2017), on what facts known to
you were you basing the assertion that LT Scott Ireland “shot and killed a [sic] 25 and 18 year old kids”?
Please also briefly explain how those facts became
known to you.
ANSWER
The actual post is as follows: “
There is no question that Lt Ireland fired a weapon and
killed Kadhar Bailey, the 25 year old. This fact was confirmed by Assistant Attorney General Kent Avery.
I did initially think that Lt Ireland Shot Amber Fagre.
When I learned that Trooper Parks actually shot her, I

129a
Appendix C
immediately updated that information on social media.
I initially assumed Lt Ireland shot her based on the
information I had available to me at the time. Notably
the shooting happened near Lt Irelands personal residence, and he was the ranking officer on scene, prior
complaints about Lt Ireland and he was named as a
shooter in several newspaper articles.
The basis of my opinion was from Newspaper reports
indicataing that Lt. Ireland was a shooter in an incident that killed Kadhar and Amber; verbal reports
from a close friend of Amber Fagre on her injuries,
photo’s of the Dodge Durango as to show trajectory of
bullets fired by police and medical records on injuries
to Kadhar Bailey. Also Amber Fagre.was not in the possession weapon and it appeared that no scientific drug
or alcohol test was conducted on the police.
I believed at the time, and now, this social media post
to be protected first amendment speech.
QUESTION 39
On page 161 of the record before the Maine Superior
Court in the matter of Joshua Gray v. State of Maine,
Department of Public Safety (Kennebec County Superior Court – Augusta Dkt. No. AP-18-65), you asserted
the following on your NSI Investigation & Surveillance
business’ Facebook page:

130a
Appendix C
“Also this happened right outside Lt Irelands personal
residence! He was off duty at the time and possible [sic]
drunk.”
Further, on page 162 of the record before the Maine
Superior Court in the matter of Joshua Gray v. State
of Maine, Department of Public Safety (Kennebec
County Superior Court – Augusta Dkt. No. AP-18-65),
you asserted the following on your NSI Investigation
& Surveillance business’ Facebook page:
“The bullet trajectories clearly show the cops were not
in front of the vehicle. They were well off to the side
and out of danger. Not to mention Lt Ireland was most
likely drunk!!!”
At the times you made the respective assertions that
LT Scott Ireland was “possible [sic] drunk” and “was
most likely drunk,” what was the factual basis of your
having implied with those assertions that LT Scott Ireland drinks? In other words, at the times you made the
respective assertions, on what facts known to you were
you basing those assertions that both imply LT Scott
Ireland drinks? Please also briefly explain how those
facts became known to you.
ANSWER
This is my opinion and not a ‘fact’ as suggested in the
question.
I expressed my opinion that Lt Ireland was ‘Possible
Drunk’ & ‘was most likely drunk’. This opinion was

131a
Appendix C
based on information that Lt Ireland was Off Duty at
the time of the shooting and it happened close to his
home / personal residence. When I learned the State
Police and AG office did not suspect him of being
drunk, I immediately posted the following on social
media: (see right)

While the State did not think he was drunk based on
‘detecting nothing that would indicate alcohol use’, it
seems that no scientific tests were conducted to confirm that. Scientific test of all police involved in this
shooting would have eliminated this opinion.
I believed at the time, and now, this social media post
to be protected first amendment speech. It was not
written with malicious intent.

132a
Appendix C
Joshua Gray v. State of Maine, Department of Public
Safety (Kennebec County Superior Court – Augusta
Dkt. No. AP-18-65)

CERTIFICATION
I, Joshua A. Gray, hereby certify that, to the best of my
knowledge and belief, the responses I have provided to
the questions that have been posed to me above are
truthful.
9/18/19
DATE

Joshua A. Gray
SIGNATURE OF
JOSHUA A. GRAY
*****

State of

Maine

County of

Knox

The foregoing instrument was acknowledged before
me this 18th day of
September, 2019 at Camden, Maine by Mr. Joshua A.
Gray.
Roger L. Hurley
Signature of Notary Public
Roger L. Hurley
Printed Name of Notary Public
My commission expires:

Bar No. 004834

133a
Appendix D
2019 WL 4899250 (Me.Super.) (Trial Order)
Superior Court of Maine.
Kennebec County
Joshua GRAY, Petitioner,
v.
STATE of Maine, DEPARTMENT OF
PUBLIC SAFETY, Respondent.
No. AP-18-65.
July 18, 2019.
Order on Petitioner’s 80C Appeal
Roger Hurley, Esq., 48 Washington Street, Camden,
ME 04843, plaintiff ’s.
Kent Avery, AAG, 6 State House Station, Augusta, ME
04333-0006, defendant’s.
Before the Court is Petitioner Joshua Gray’s 80C
petition for review of the Department of Public Safety’s
(the “Department’s”) denial of his application for a
Professional Investigator’s License. For the following
reasons, the petition is granted.
Background
Joshua Gray is licensed as a Professional Investigator in Tennessee, Vermont, Massachusetts and New
Hampshire. On January 26, 2018, Gray applied for an
investigator’s license in Maine. As part of its review of
Gray’s application, the Department conducted a background investigation which included an investigation

134a
Appendix D
into Gray’s use of social media. This investigation revealed that Gray has published numerous statements
concerning a fatal police shooting which occurred in
Vassalboro in 2017. The dominant theme of these
statements is that an officer who was involved in the
shooting, Lt. Scott Ireland, is a “dirty cop” whose career
has been plagued by lying, internal affairs trouble and
abuse of power issues and who committed first degree
murder while he was “likely drunk.” As a result of its
investigation, the Department concluded that Gray
had made statements which demonstrate that he
“lack[s] the requisite competency and fitness of character to act as a PI in the State of Maine.” Consequently,
the Department denied Gray’s application on August
31, 2018. Gray’s attorney received a copy of the denial
on September 14, 2018 and on October 11, 2018 Gray
filed a petition for review of the denial of his application.
Standard of Review
The Court reviews an administrative agency’s decision for an abuse of discretion, error of law, or findings not supported by the evidence. Uliano v. Bd. of
Envtl. Prot., 2009 ME 89, ¶ 12, 977 A.2d 400 (citation
omitted). “An administrative decision will be sustained
if, on the basis of the entire record before it, the agency
could have fairly and reasonably found the facts as it
did.” Id. (quoting CWCO, Inc. v. Superintendent of Ins.,
1997 ME 226, ¶ 6, 703 A.2d 1258). The party seeking
to vacate an agency decision bears the burden of

135a
Appendix D
persuasion. Kelley v. Me. Pub. Emps. Ret. Sys., 2009 ME
27, ¶ 16, 967 A.2d 676. “When an agency concludes that
the party with the burden of proof failed to meet that
burden, [the court] will reverse that determination
only if the record compels a contrary conclusion to the
exclusion of any other inference.” Kelley v. Me. Pub.
Emples. Ret. Sys., 2009 ME 27, ¶ 16, 967 A.2d 676 (quotation omitted).
Discussion
The State of Maine requires that professional investigators obtain a professional investigator’s license
from the Chief of the Maine State Police. 32 M.R.S.
§ 8104. In order to obtain an investigator’s license, an
applicant must demonstrate that they possess good
moral character. Id. § 8105(4). Further, the Chief may
refuse to issue a license if the applicant has:
A. Engaged in conduct that evidences a lack
of ability or fitness to discharge the duty owed
by the licensee to a client or the general public; or
B. Engaged in conduct that evidences a lack
of knowledge or an inability to apply principles or skills to carry out the practice for
which the person is licensed.
32 M.R.S.§ 8113(6).
In this case, the Chief of the Maine State Police
determined that “since early 2017, [Gray had] made

136a
Appendix D
postings on social media platforms (including on [his]
business’ official Facebook page) that include statements that are materially false.” (R. 4.) The Chief further determined that “[b]y publishing such misleading
statements publicly, [Gray has] demonstrated conduct
that brings into question [his] ability to competently
investigate and then report investigative findings with
accuracy, objectivity, and without bias.” Id. The Chief
reasoned that “[f ]rom a consumer protection perspective, these findings . . . are of great concern.” Id. Consequently, the Chief denied Gray’s license based on his
findings that Gray “lack[s] the requisite competency
and fitness of character to act as a PI in the State of
Maine.” (R. 4.)
Gray argues that denying his application on the
basis of his social media articles and posts violates his
right to free speech and thus constitutes an error of
law. Gray asserts that his social media postings are
statements of opinion which were not likely to incite
violence and that they were made in his capacity as a
private citizen. Because, in his view, “[a]ll speech, in
any form and by any method, has always been ruled as
protected except speech which incites imminent violence,” Gray argues that his social media posts cannot
be considered when determining whether he has good
moral character.
The Department argues that many of Gray’s statements are demonstratively false and that this supports
a finding that Gray is dishonest, not able to accurately
report facts, and is incompetent to act as a professional

137a
Appendix D
investigator. The Department also points out that defamatory speech is not protected by the First Amendment. See Ashcroft v. Free Speech Coal., 535 U.S.
234,245-46 (2002) (“As a general principle, the First
Amendment bars the government from dictating
what we see or read or speak or hear. Freedom of
speech of course has its limits; it does not embrace certain categories of speech, including defamation, incitement, obscenity, and pornography produced with real
children.”)
As a general matter, “[a] State cannot exclude a
person from the practice of law or from any other occupation in a manner or for reasons that contravene the
Due Process or Equal Protection Clause of the Fourteenth Amendment.” In re Feingold, 296 A.2d 492, 49899 (Me. 1972) (quoting Schware v. Board of Bar Examiners, 353 U.S. 232, 238-239 (1957)). And as a matter of
First Amendment principles, a Government may not
regulate speech based upon the motivating ideology,
opinion or perspective of the speaker. Rosenberger v.
Rector & Visitors of the Univ. of Va., 515 U.S. 819, 829
(1995).
In this case, the Department’s Notice of Denial
shows that Gray’s application was denied because of
the statements that Gray made on social media. Further, the notice shows that the Department’s denial
was based upon its disagreement with the viewpoints
expressed in these statements. The Department reasons that Gray should not receive a private investigator’s license as the statements show that he is

138a
Appendix D
incompetent and lacks the necessary fitness of character. This finding is in turn based solely on what the
Department characterizes as “materially false” statements that Gray has made publicly. In other words, it
is based on the Department’s disagreement with
Gray’s publicly stated opinion that the State Trooper
is a dirty cop with a history of internal affairs problems
who committed murder.
In its court filings the Department argues that
the denial was not actually based upon Gray’s public
opinions about police corruption and competency, but
rather that it was based on conduct which shows that
Gray is unable to investigate with accuracy, objectivity,
and without bias. In support of its argument, the Department has provided a spreadsheet compiling Gray’s
statements and the Department’s findings regarding
the purported veracity of each statement. Additionally,
the Department has also submitted the Attorney General’s investigative report on the use of deadly force
by the State Police during the 2017 Vassalboro shooting; a memorandum from Lt. Anna Love of the State
Police Office of Professional standards stating that
Lt. Ireland does not have any history of being disciplined for misconduct; and over 300 pages of statements that Gray has made on social media.
Although the Department has offered evidence
which supports its opinion that Lt. Ireland is not guilty
of murder and has not been subject to internal affairs

139a
Appendix D
discipline1, there is no record evidence of the investigative methods Gray employed or the specific information
Gray either utilized or ignored in reaching his conclusions about Lt. Ireland and the Maine State Police.
Moreover, there is nothing in the record to suggest that
whatever Gray did in regards to the shooting was an
“investigation” as opposed to him making statements
that were understandably perceived by state actors to
be false, outrageous and offensive. The Court concludes
that the Department’s determination that Gray lacks
the necessary competency to investigate is based primarily on the fact that Gray has reached opinions or
conclusions about Lt. Ireland and the State Police
which are completely at odds with the Department’s,
and which do display a hostile bias toward Lt. Ireland.
Further, although Gray’s statements may arguably contain defamatory material,2 the Department has
overlooked two important considerations which the
Court cannot. First, the Court in this Rule 80C appeal
is not in any position to adjudicate whether the statements constitute defamation against a public figure.
More fundamentally, however, the Maine Supreme
1

It should be noted that there is no record evidence that Lt.
Ireland has not been the subject of internal affairs investigations.
The only evidence is that he has not been disciplined as a result
of any investigation.
2
The parties disagree over whether Gray’s statements
should be fairly characterized as statements of opinion or statements of fact. See Lester v. Powers, 596 A.2d 65, 69 (Me. 1991) (an
opinion which does not imply the existence of undisclosed defamatory facts cannot support a claim for defamation).

140a
Appendix D
Court has recognized that statements made about or
against public officials, even ones which are “objectively false”, inflammatory, or outrageous, are protected
by a limited First Amendment privilege. See Plante v.
Long, 2017 ME 189,¶ 10, 170 A.3d 24. Because the
statements at issue here all concern and pertain to a
matter of public importance and public figures – a police shooting, the resulting investigation, and the police officer involved in the shooting – this appeal
cannot be resolved in the usual manner by determining if there is competent evidence in the record to
support the administrative decision. The Petitioner is
making a constitutional argument, which of course is
something that can be done in an administrative appeal such as this one. The Court has concluded that the
issue therefore becomes what standard the Department is required to apply to the statements in order
to determine if Petitioner can be denied a license based
on, as the Department frames the issue, his “competence” and “character.”
While the Court could not find any Maine case in
which a professional license was denied solely based on
statements made by the applicant in social media, the
Law Court in Plante did not just reaffirm and reiterate
the limited privilege that applies to allegedly defamatory statements made against public figures. It held
that in order to overcome the privilege, a showing must
be made by clear and convincing evidence that the
statements were made with “actual malice”—i.e., with
knowledge that the statements were false or with

141a
Appendix D
reckless disregard of their truth or falsity. Id. While the
Department understandably believes, based on their
investigations of Lt. Ireland, that the statements were
“materially false,” the Law Court clarified in Plante
that the objective falsity of a statement or statements
cannot by itself support a finding of actual malice. Id.
¶ 12.
In its notice of denial, the Department does not
make any finding whether Petitioner made these statements with knowledge that they were false, or with
reckless disregard of their truth or falsity. This means
that it has not provided any evidence showing that
Gray acted with actual malice when he published his
social media statements, Because the Department focused solely on the objective falsity of Gray’s statements, it applied the wrong legal standard to
determine whether Gray lacks competence and good
moral character because he made defamatory or false
statements. Consequently, this matter must be remanded to the Department to allow it to determine
whether Gray, at the time he published his allegedly
defamatory social media posts, “in fact knew that his
statements were false or . . . acted with a high degree
of awareness of their probable falsity.” Id. ¶ 10 (quotation omitted).

142a
Appendix D
Conclusion
For the foregoing reasons, the entry will be:
The Petitioner’s Rule 80 C petition is granted
in part. The decision of the Department of Public
Safety is reversed and remanded to the Department to conduct an appropriate process or proceeding which would enable it to determine if
the Petitioner’s statements were made with actual malice as defined by Maine law. The clerk is
directed to incorporate this order into the
docket by reference. M.R. Civ. P. 79(a).
Date: 7/18/19
<<signature>>
Justice, Superior Court
Date of Entry
10/11/18

Petition for Review of Final Agency
Action, filed. s/Hurley, Esq.

10/25/18

Entry of Appearance for Respondent,
State of Maine, by Assistant Attorney
General Kent Avery, filed (10/25/18).
s/Avery, AAG

10/25/18

Letter from Tandra Manzo, of the Office
of the Attorney General requesting a
copy of docket record, filed (10/25/18).
s/Manzo, Paralegal
Clerk sent copy of docket record to AAG
Kent Avery

143a
Appendix D
10/31/18

Supplemental Entry of Appearance to
state that all three parties take the
position that the decision of the State
Police to deny the Plaintiff a license as
a Professional Investigator should be
affirmed, filed (10/29/18). s/ Avery, Esq.

10/31/18

Summons/Service
Certificate of Service by Certified Mail,
filed (10/29/18). s/Hurley, Esq.
Service on 10/15/18

11/06/18

Certified Record, filed (11/05/18).
s/Avery, AAG

11/06/18

Notice and Briefing Schedule Issued
Copies to Parties/Counsel

11/14/18

Petitioner’s Consented Motion for Waiver
of Compliance to Title 5: administrative
Procedures and Services Part 18,
Chapter 374 Sub Chapter 7, Section
11003, filed (11/14/118). s/Hurley, Esq.

11/15/18

ORDER, Murphy, J. (11/19/18)
Order on Petitioner’s Motion for Waiver
of Compliance
Motion is GRANTED
Copies to Parties/Counsel

12/18/18

Petitioner’s Brief, filed (12/13/18).
s/Hurley, Esq.

144a
Appendix E
[SEAL]
STATE OF MAINE
DEPARTMENT OF PUBLIC SAFETY
MAINE STATE POLICE
COL JOHN E. COTE CHIEF

LTC WILLIAM S. HARWOOD
DEPUTY CHIEF

By Certified Mail, Return Receipt #70153430000050949983
31 August 2018
Mr. Joshua Gray
25 Dorchester Avenue # 51187
Boston, MA 02205
RE: Notice of Denial of Application for Professional Investigator’s License; Opportunity to Appeal
Dear Mr. Gray:
This letter concerns the application for a professional investigator (“PI”) license you submitted to the
Maine State Police on or about 26 January 2018.
After reviewing the information you provided to
our agency in and with your application, as well as information ascertained during the administrative licensing background investigation that occurs when
such applications are processed, I am denying your application for a PI license.
In the case of your application, our background investigation found that since early 2017, you have made
postings on social media platforms (including on your

145a
Appendix E
business’ official Facebook page) that include statements that are materially false. Those statements
have been documented in our administrative licensing
file and you previously were provided a copy of them.
By publishing such misleading statements publicly, you have demonstrated conduct that brings into
question your ability to competently investigate and
then report investigative findings with accuracy, objectivity, and without bias. From a consumer-protection
perspective, these findings of the background investigation are of great concern.
Accordingly, pursuant to Chapter 89 of the Title 32
of the Maine Revised Statutes, for the reasons discussed above, your application for licensure as a PI is
denied because you lack the requisite competency and
fitness of character to act as a PI in the State of Maine.
See 32 M.R.S. §§ 8105, 8107, 8113.
This decision is appealable as final agency action
pursuant to the Maine Administrative Procedure Act,
5.M.R.S.A., Ch. 375, Subchapter VII, which provides
that judicial review of final agency action may be had
by filing a petition for review within 30-days of receipt
of notice of final agency action in the Superior Court
for the county where:
(a) One or more of the petitioners reside or
have their principal place of business;
(b) The agency has its principal office; or

146a
Appendix E
(c) The activity or property which is the subject of the proceeding is located.
/s/ John E. Cote
Colonel John E. Cote
Chief, Main State Police

147a
Appendix F
32 M.R.S.A. § 8105.
Private investigator’s license qualifications
Effective: May 22, 2012
A person is qualified to be licensed as a professional
investigator who:
1.

Age. Is at least 21 years of age;

2. Citizenship. Is a citizen or resident alien of the
United States;
3. Graduation. Is a graduate of an accredited high
school or has been granted high school equivalency status by the State;
4. Character. Has demonstrated good moral character and has not been convicted of a crime that is punishable by a maximum term of imprisonment equal to
or exceeding one year, or a crime enumerated in this
chapter. The determination of good moral character
must be made in writing, based upon evidence recorded by a governmental entity. The chief shall consider matters recorded within the previous 5 years
including, but not limited to, the following:
A. Records of incidents of abuse by the applicant
of family or household members provided pursuant to Title 19-A, section 4012, subsection 1;
B. Records provided by the Department of Health
and Human Services regarding the failure of the
applicant to meet child or family support obligations;

148a
Appendix F
C. Records of 3 or more convictions of the applicant for Class D or E crimes;
D. Records of 3 or more civil violations by the applicant; or
E. Records that the applicant has engaged in
recklessness or negligence that endangered the
safety of others, including the use of weapons or
motor vehicles;
5. Application. Submits an application approved by
the chief that, at a minimum, includes the following
information:
A.

The applicant’s full name;

B. The applicant’s full current residential address and the applicant’s residential addresses
during the previous 5 years;
C. The applicant’s date and place of birth, height,
weight and color of eyes;
D. A written statement signed by the applicant
granting the chief authority to check the criminal
records of any law enforcement agency that pertains to any matter involving the applicant. The
applicant must agree to submit to having the applicant’s fingerprints taken by the issuing authority if it becomes necessary to resolve any question
as to the applicant’s identity; and
E.

The answers to the following questions:
(1) Are you currently under indictment or
information for a crime for which the possible

149a
Appendix F
penalty is imprisonment for a period equal to
or exceeding one year?
(2) Have you ever been convicted of a crime
for which the possible penalty was imprisonment for a period equal to or exceeding one
year?
(3)

Are you a fugitive from justice?

(4) Are you an unlawful user of or addicted
to marijuana or any other drug?
(5) Have you been adjudged mentally defective or been committed to a mental institution
within the past 5 years? or
(6)

Are you an illegal alien?

By affixing the applicant’s signature, the applicant certifies that the information in the application provided
by the applicant is true and correct, that the applicant
understands that an affirmative answer to any of the
questions in paragraph E is cause for a license to be
denied and that any false statement may result in
prosecution as provided in section 8114.
6. Military discharge. Has not been dishonorably
discharged from military service;
7.

Repealed. Laws 1985, c. 141, § 1.

7-A. Experience. Meets at least one of the following
criteria:
A. Has successfully completed an investigative
assistant sponsorship program pursuant to section

150a
Appendix F
8110-B and has earned a minimum of 60 academic
credits of postsecondary education in a related
field of study or an equivalent certificate of study
for private investigation;
B. Has been employed for a minimum of 3 years
as a member of an investigative service of the
United States as a sworn member of a branch of
the United States Armed Forces or a federal investigative agency. For purposes of this paragraph, “a
member of an investigative service of the United
States” means a full-time federal investigator or
detective of the United States Armed Forces;
B-1. Has held for a period of not less than 3 years
a valid professional investigator’s license granted
under the laws of another state or territory of the
United States if
(1) The requirements of the state or territory for a professional investigator’s license
were, at the date of the licensing, substantially equivalent to the requirements of this
chapter; and
(2) The other state or territory grants similar reciprocity to license holders in this State;
C. Has been employed for a minimum of 3 years
as a law enforcement officer of a state or political
subdivision of a state and has met the training requirements set forth in Title 25, section 2804-C or
is qualified to receive a waiver from those requirements; or

151a
Appendix F
D. Possesses a minimum of 6 years of preparation consisting of a combination of
(1) Work experience, including at least 2
years in a nonclerical occupation related to
law or the criminal justice system; and
(2) Educational experience, including at
least:
(a) Sixty academic credits of postsecondary education in a field of study listed
in division (b) acquired at an accredited
junior college, college or university;
(b) An associate degree acquired at an
accredited junior college, college, university
or technical college in police administration, security management, investigation,
law, criminal justice or computer forensics or other similar course of study acceptable to the chief; or
(c) An associate degree in any field of
study that is acceptable to the chief; and
8. Examination. Has passed an examination administered by the chief covering subjects pertaining to
private investigation to be prescribed by the chief, except that a person currently licensed, as described in
section 8106, may at no time be required to take any
such examination.

